<html>
<title> - PREPARING TODAY'S STUDENTS FOR TOMORROW'S JOBS: A DISCUSSION ON CAREER AND TECHNICAL EDUCATION AND TRAINING PROGRAMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 PREPARING TODAY'S STUDENTS FOR TOMOR-
                 ROW'S JOBS: A DISCUSSION ON CAREER AND
               TECHNICAL EDUCATION AND TRAINING PROGRAMS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 20, 2013

                               __________

                           Serial No. 113-34

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
82-793                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c6b7c634c6f797f786469607c226f636122">[email&#160;protected]</a>  

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

John Kline, Minnesota                Carolyn McCarthy, New York,
Thomas E. Petri, Wisconsin             Ranking Minority Member
Virginia Foxx, North Carolina        Robert C. ``Bobby'' Scott, 
Kenny Marchant, Texas                    Virginia
Duncan Hunter, California            Susan A. Davis, California
David P. Roe, Tennessee              Raul M. Grijalva, Arizona
Glenn Thompson, Pennsylvania         Marcia L. Fudge, Ohio
Martha Roby, Alabama                 Jared Polis, Colorado
Susan W. Brooks, Indiana             Gregorio Kilili Camacho Sablan,
                                       Northern Mariana Islands
                                     Frederica S. Wilson, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 20, 2013...............................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     5
    McCarthy, Hon. Carolyn, ranking minority member, Subcommittee 
      on Early Childhood, Elementary, and Secondary Education, 
      prepared statement of......................................    32
    Rokita, Hon. Todd, Chairman, Subcommittee on Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Bargas, Alvin M., president, Associated Builders and 
      Contractors (ABC), Pelican chapter.........................     6
        Prepared statement of....................................     8
    Britt, Frank F., CEO, Penn Foster............................    21
        Prepared statement of....................................    23
    Fischer, John, deputy commissioner, transformation & 
      innovation, Vermont Agency of Education....................    15
        Prepared statement of....................................    17
    Harrity, Dr. Sheila M., principal, Worcester Technical High 
      School, Worcester, Massachusetts...........................    10
        Prepared statement of....................................    11

Additional Submissions:
    Mr. Bargas:
        ``Building Louisiana's Craft Workforce,'' Internet 
          address to.............................................    53
        Presentation, dated Oct. 2006, ``Recommendations for 
          Confronting the Skilled Construction Workforce Shortage 
          in Louisiana''.........................................    53
        Response to questions submitted for the record...........    41
    Mr. Britt, response to questions submitted for the record....    43
    Mr. Fischer:
        National Association of State Directors of Career 
          Technical Education Consortium (NASDCTEc), prepared 
          statement of...........................................    58
        ``Reflect, Transform, Lead: A New Vision for Career 
          Technical Education,'' Internet address to.............    60
        Response to questions submitted for the record...........    46
    Mr. Grijalva:
        Association for Career and Technical Education (ACTE), 
          prepared statement of..................................    32
        Questions submitted for the record to:
            Mr. Fischer..........................................    46
            Dr. Harrity..........................................    49
    Dr. Harrity:
        Article, dated May 2011, in Principal Leadership, 
          ``Laying the Foundation for Future Success''...........    61
        Response to questions submitted for the record...........    49
    Chairman Rokita:
        Letter, dated Sept. 20, 2013, from Independent Electrical 
          Contractors (IEC)......................................    51
        Letter, dated Sept. 19, 2013, from the National 
          Association of Home Builders (NAHB)....................    53
        Questions submitted for the record to:
            Mr. Bargas...........................................    41
            Mr. Britt............................................    43
            Mr. Fischer..........................................    46
            Dr. Harrity..........................................    49
    Thompson, Hon. Glenn, a Representative in Congress from the 
      State of Pennsylvania:
        Langevin, Hon. Jim, a Representative in Congress from the 
          State of Rhode Island, prepared statement of...........    30
        Questions submitted for the record to:
            Mr. Bargas...........................................    41
            Mr. Britt............................................    43
            Mr. Fischer..........................................    46
            Dr. Harrity..........................................    49


                     PREPARING TODAY'S STUDENTS FOR
                    TOMORROW'S JOBS: A DISCUSSION ON
                     CAREER AND TECHNICAL EDUCATION
                         AND TRAINING PROGRAMS

                              ----------                              


                       Friday, September 20, 2013

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                  Elementary, and Secondary Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:01 a.m., in 
room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Kline, Roe, Thompson, 
Brooks, Davis, and Grijalva.
    Staff Present: Katherine Bathgate, Deputy Press Secretary; 
James Bergeron, Director of Education and Human Services 
Policy; Heather Couri, Deputy Director of Education and Human 
Services Policy; Amy Raaf Jones, Education Policy Counsel and 
Senior Advisor; Rosemary Lahasky, Professional Staff Member; 
Krisann Pearce, General Counsel; Dan Shorts, Legislative 
Assistant; Nicole Sizemore, Deputy Press Secretary; Alex 
Sollberger, Communications Director; Alissa Strawcutter, Deputy 
Clerk; Brad Thomas, Senior Education Policy Advisor; Tylease 
Alli, Minority Clerk/Intern and Fellow Coordinator; Jeremy 
Ayers, Minority Education Policy Advisor; Kelly Broughan, 
Minority Education Policy Associate; Jody Calemine, Minority 
Staff Director; Jacque Chevalier, Minority Education Policy 
Advisor; Tiffany Edwards, Minority Press Secretary for 
Education; Jamie Fasteau, Minority Director of Education 
Policy; Liz Hollis, Minority Special Assistant to Staff 
Director; Eunice Ikene, Minority Staff Assistant; and Megan 
O'Reilly, Minority General Counsel.
    Chairman Rokita. Good morning. A quorum being present, the 
subcommittee will come to order. Thank you for joining us today 
for our hearing to discuss career and technical education 
training programs under the Carl D. Perkins Career and 
Technical Education Act. I would like to send a warm welcome to 
our witnesses whose testimony will be invaluable to our efforts 
to reauthorize and strengthen the law.
    The Perkins Act provides Federal funding to States to 
support career and technical education or what we call in the 
business CTE programs. These programs offer high school and 
community college students the opportunity to gain the skills 
and experience necessary to compete for jobs in a broad range 
of fields, including health care, transportation, construction, 
hospitality, and that is just to name a few.
    A number of state school districts and post-secondary 
institutions have implemented truly exceptional CTE programs. 
In Massachusetts, for example, Worcester--I am sure I am 
mispronouncing that being from the Midwest--Technical High 
School has partnered with Tufts University to provide 
affordable animal care for low-income families. The university 
funds a resident veterinarian to operate an onsite clinic at 
the high school, and the tech students get to work at the 
clinic and obtain hands-on experience. We are fortunate to have 
with us the principal who will share more information about 
this initiative during her testimony.
    To prepare our students for high demand jobs in my home 
State of Indiana, Ivy Tech's Ivy Institute of Technology offers 
automotive, manufacturing, welding, and other specialized 
training programs that allow students to learn new career 
skills in just 40 weeks. In Wisconsin, Gateway Technical 
College offers more than 60 career education programs, 
including a medical assistant degree program that provides 
students with real world clinical, administrative, and 
laboratory training.
    However, despite these shining examples, the Bureau of 
Labor Statistics recently reported more than 8 million 
Americans between the ages of 16 and 24 are still looking for 
jobs. By strengthening the career and technical education 
programs funded under the Perkins Act, we can help. We can help 
more of these young people gain an edge in the workforce.
    As we begin our discussions on improving the act we must 
first assess the Federal role in career and technical 
education. To receive funding through the act States with CTE 
programs must comply with a series of Federal reporting 
requirements, some of which are duplicative to those under the 
Workforce Investment Act and the Elementary and Secondary 
Education Act. We cannot allow redundant Federal mandates to 
make it harder for States to offer the career training 
opportunities that young people need.
    We must also discuss ways to ensure CTE programs are 
actually effective. States and schools must have the 
flexibility to coordinate with the local business community to 
develop and implement programs that prepare students for in-
demand jobs. Additionally, CTE course work should provide 
students with opportunities to obtain relevant certificates, 
credits, and hands-on experience that will allow them to more 
seamlessly integrate into the workforce.
    Recognizing the success of CTE programs depends upon 
effective teachers. We must examine ways to help states recruit 
and retain educators with valuable technical knowledge and 
experience. A 2010 study released by the National Association 
of State Directors of Career Technical Education Consortium 
identified dozens of States that are struggling to attract CTE 
teachers in several key career sectors, including health 
sciences, manufacturing, agriculture, and the rapidly growing 
STEM fields.
    As we work to rebuild our economy after the recent 
recession, strengthening career and technical education 
programs will help put more Americans on the path to a 
prosperous future. In the coming weeks this committee will 
discuss a range of proposals to improve the Perkins Act, 
including those offered in President Obama's Blueprint to 
Transform Career and Technical Education, and I look forward to 
beginning that discussion right now.
    Once again, I would like to thank our panel of witnesses 
for joining us. And I would now yield to my distinguished 
colleague from Arizona, Raul Grijalva, for his opening remarks.
    [The statement of Chairman Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary, and Secondary Education

    The Perkins Act provides federal funding to states to support 
career and technical education (or CTE) programs. These programs offer 
high school and community college students the opportunity to gain the 
skills and experience necessary to compete for jobs in a broad range of 
fields, including health care, transportation, construction, and 
hospitality, just to name a few.
    A number of states, school districts, and postsecondary 
institutions have implemented truly exceptional CTE programs. In 
Massachusetts, Worcester Technical High School has partnered with Tufts 
University to provide affordable animal care for low-income families. 
The university funds a resident veterinarian to operate an on-site 
clinic at the high school, and Worcester Tech students get to work at 
the clinic and obtain hands-on experience. We are fortunate to have 
with us today the principal of Worcester Tech who will share more 
information about this initiative during her testimony.
    To prepare students for high-demand jobs in my home state of 
Indiana, Ivy Tech's Ivy Institute of Technology offers automotive, 
manufacturing, welding, and other specialized training programs that 
allow students to learn new career skills in just 40 weeks. And in 
Wisconsin, Gateway Technical College offers more than 60 career 
education programs, including a Medical Assistant degree program that 
provides students with real-world clinical, administrative, and 
laboratory training.
    However, despite these shining examples, the Bureau of Labor 
Statistics recently reported more than 8 million Americans between the 
ages of 16 and 24 are still looking for jobs. By strengthening the 
career and technical education programs funded under the Perkins Act, 
we can help more of these young people gain an edge in the workforce.
    As we begin our discussions on improving the Perkins Act, we must 
first assess the federal role in career and technical education. To 
receive funding through the Perkins Act, states with CTE programs must 
comply with a series of federal reporting requirements, some of which 
are duplicative to those under the Workforce Investment Act and the 
Elementary and Secondary Education Act. We cannot allow redundant 
federal mandates to make it harder for states to offer the career 
training opportunities our young people need.
    We must also discuss ways to ensure CTE programs are effective. 
States and schools must have the flexibility to coordinate with the 
local business community to develop and implement programs that prepare 
students for in-demand jobs. Additionally, CTE coursework should 
provide students with opportunities to obtain relevant certificates, 
credits, and hands-on experience that will allow them to more 
seamlessly integrate into the workforce or get ahead in their quest to 
earn a postsecondary degree.
    Recognizing the success of CTE programs depends upon effective 
teachers, we must examine ways to help states recruit and retain 
educators with valuable technical knowledge and experience. A 2010 
study released by the National Association of State Directors of Career 
Technical Education Consortium identified dozens of states that are 
struggling to attract CTE teachers in several key career sectors, 
including health sciences, manufacturing, agriculture, and the rapidly-
growing STEM fields.
    As we work to rebuild our economy after the recent recession, 
strengthening career and technical education programs will help put 
more Americans on the path to a prosperous future. In the coming weeks, 
this committee will discuss a range of proposals to improve the Perkins 
Act, including those offered in President Obama's ``Blueprint to 
Transform Career and Technical Education,'' and I look forward to 
beginning that discussion today.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, Mr. Chairman, and thank 
you for the hearing. And I agree it is important to initiate 
this discussion about this very important component of 
education in our country. Today's hearing will showcase 
innovations in delivery of career and technical education 
programs, many of which are funded under the Carl D. Perkins 
Career and Technical Education Improvement Act of 2006.
    Career technical education programs prepare millions of 
Americans to succeed in both college and career, and gives them 
access to modern job skills they need and that employers are 
demanding. This act has supported the development of academic 
and career and technical skills among secondary and post-
secondary education students of all backgrounds. Helping to 
prepare them for in-demand and high-paying jobs is the goal.
    High quality, relevant, and rigorous CTE is imperative for 
our Nation to stay competitive and to build a stronger economy. 
By ensuring that students not only graduate from high school 
college- and career-ready, but also succeed in college and the 
global economy, we are in that way securing our Nation's 
future. Of the 30 fastest growing occupations, about two-thirds 
require post-secondary education or training and that need is 
projected to grow over the next years. In the State of Arizona 
there are currently 70 CTE programs with over 229,000 students 
enrolled, of which 30 percent are Latino and over 40 percent of 
those students are of color.
    In Arizona investment in CTE programs has diminished. After 
the harmful sequestration cuts, public funding for CTE is at a 
historic low despite our State consistently performing well on 
indicators of student success. We shouldn't cut funding from 
programs that mean the difference between getting ahead and 
falling behind for workers all over this Nation. We should 
support quality programs that allow students to explore 
different career interests and work-based learning 
opportunities that help prepare them for both the workforce and 
further post-secondary education. We know there is a skills 
gap, we know career technical education is integral to closing 
that gap.
    Evaluations of career academies across the country have 
demonstrated that offering students academically rigorous 
curricula embedded in career-related programs can reduce high 
school dropout rates and prepare students for high-earning, 
high-skilled careers. High school students who graduate from 
career academies make on the average 11 percent more per year 
than the non-career academy counterparts. One in four who earn 
a post-secondary certificate eventually earn a 4-year college 
degree. Higher earnings help our overall economy, increasing 
consumer spending and strengthening and growing the middle 
class.
    I welcome our distinguished panel of witnesses, as they 
have some of the most extensive insights into these programs. 
We are grateful they are sharing their knowledge. And I look 
forward to continued collaboration with the majority to address 
reauthorization of this very vital and important program.
    With that, Mr. Chairman, I yield back, and thank you.
    Chairman Rokita. Thank you Mr. Grijalva.
    [The statement of Mr. Grijalva follows:]

   Prepared Statement of Hon. Raul M. Grijalva, a Representative in 
                   Congress From the State of Arizona

    Good morning and thank you, Chairman Rokita.
    Today's hearing will showcase innovations in delivery of career and 
technical education programs, many of which are funded under the Carl 
D. Perkins Career and Technical Education Improvement Act of 2006.
    Career technical education programs prepare millions of Americans 
to succeed in both college and career and gives them access to the 
modern job skills they need and that employers demand. This act has 
supported the development of academic and career and technical skills 
among secondary and postsecondary education students of all 
backgrounds; helping to prepare them for in-demand and high paying 
jobs. High quality, relevant, and rigorous CTE is imperative for our 
nation to stay competitive and build a stronger economy. By ensuring 
that students not only graduate from high school, college- and career-
ready, but also succeed in college and the global economy, we are 
securing our nation's future.
    Of the 30 fastest-growing occupations, about two-thirds require 
postsecondary education or training and projected to grow over the 
years. In the state of Arizona, there are currently 70 CTE programs 
with over 229,569 students enrolled, of which 30% are Hispanic 
students.
    In Arizona, investment in CTE programs has diminished. After the 
harmful sequestration cuts, public funding for CTE is at historic lows, 
despite our state consistently performing on indicators of student 
success. We shouldn't cut funding for programs that mean the difference 
between getting ahead and falling behind for workers all over the 
country. We should support quality programs that allow students to 
explore different career interests and work-based learning 
opportunities that help prepare them for both the workforce and further 
postsecondary education. We know there's a skills gap. We know Career 
technical education is integral to closing that gap.
    Evaluations of career academies across the country have 
demonstrated that offering students academically rigorous curricula 
embedded in career-related programs can reduce high school drop-out 
rates and prepare students for high-earning and high-skilled careers.
    <bullet> High school students who graduate from career academies 
make on average 11 percent more per year than their non-career academy 
counterparts.
    <bullet> One in four who earn a postsecondary certificate 
eventually earn a four-year college degree.
    <bullet> Higher earnings help our overall economy, increasing 
consumer spending and strengthening the middle class.
    I welcome our distinguished panel of witnesses, as they have some 
of the most extensive insights into these programs, we are grateful 
they are sharing their knowledge. And I look forward to continued 
collaboration with the Majority to address reauthorization of this 
important program.
                                 ______
                                 
    Chairman Rokita. Pursuant to Committee Rule 7(c), all 
subcommittee members will be permitted to submit written 
statements to be included in the permanent hearing record. And 
without objection, the hearing record will remain open for 14 
days to allow statements, questions for the record, and other 
extraneous material referenced during the hearing to be 
submitted into the official record.
    I just would like to remind members, if and when we adjourn 
early, that as usual they may submit questions for the record. 
And I say that because we are not sure when votes will come 
today. They may come as early as 10:30 or so. If that is the 
case we will have to adjourn, the hearing will not be 
returning. The witnesses are nodding yes like they have heard 
that story before.
    So thank you, and appreciate you all coming again.
    It is now my pleasure to introduce our distinguished panel 
of witnesses. Mr. Alvin Bargas is the president of the Pelican 
Chapter of Associated Builders and Contractors. He has been an 
active participant in ABC since 1979, first as a volunteer 
member, then chairman of the Pelican Chapter, and a member of 
the chapter national board of directors.
    Dr. Sheila Harrity is the principal of Worcester Technical 
High School--I am teachable--the largest of seven high schools 
in the city of Worcester, Massachusetts. She was most recently 
selected as the Massachusetts principal of the year for 2014 
and as the MetLife National Association of Secondary School 
Principals 2014 national principal of year.
    Welcome to both of you.
    Next we have Mr. John Fischer, who is the deputy 
commissioner for transformation and innovation at the Vermont 
Agency of Education. Mr. Fischer has previously held positions 
at Plymouth State University and in the New Hampshire Community 
College System. He currently serves as president of the 
National Association of State Directors of Career Technical 
Education Consortium.
    Mr. Fischer, welcome.
    And Mr. Frank Britt is the chief executive officer at Penn 
Foster, Incorporated. He also currently serves as the operating 
advisor at Bain Capital Ventures. He has over 20 years of 
experience focused on helping grow companies in the education, 
media, technology, industrial, and consumer goods industries, 
including a variety of senior-level positions at IBM and 
Accenture.
    Welcome, Mr. Britt.
    Before I recognize each of you to provide your testimony 
explain let me briefly explain our lighting system, and really 
that is sometimes more for us up here than you there. You will 
each have 5 minutes to present your testimony. When you begin 
the light in front of you will turn green, when 1 minute is 
left it will turn yellow, when your time has expired the light 
will turn red. At that point I ask you to wrap up your remarks 
as best as you are able.
    After everyone has testified, members here will each have 5 
minutes to ask questions of the panel. And with that I would 
now like to recognize Mr. Bargas for 5 minutes.
    Sir.

    STATEMENT OF ALVIN BARGAS, PRESIDENT, PELICAN CHAPTER, 
            ASSOCIATED BUILDERS & CONTRACTORS, INC.

    Mr. Bargas. Thank you, Chairman Rokita, Congressman 
Grijalva, and members of the Subcommittee on Early Childhood, 
Elementary, and Secondary Education. My name is Alvin Bargas, 
and I serve as president of Associated Builders and 
Contractors, Pelican Chapter, located in Baton Rouge, 
Louisiana. The Pelican Chapter's volunteer leaders are 
committed to training a safe and highly skilled construction 
workforce. The chapter offers construction craft education 
programs at its Baton Rouge and Lake Charles training centers 
to currently more than 1,900 students.
    Since 1983, ABC member companies and industry-related 
partners have funded more than $43 million in training costs. 
ABC has partnership agreements with 43 high schools in 17 
districts, which includes 76 classes with more than 1,100 
students per year in demand crafts such as welding and pipe 
fitting. We also engage high school students through craft 
competitions in a 3-day Build Your Future event. In addition to 
funding, ABC members alone donate more than $50,000 per year in 
materials and equipment and volunteer 1,600 hours-plus annually 
in the classrooms.
    Louisiana's construction industry now faces a workforce 
challenge. Project announcements in excess of $60 billion in 
new construction, plus the expansion of existing facilities, is 
driving the need for skilled workers. Retirements, career 
changes, et cetera, will drive demand for an additional 51,300 
workers. Even with an exploding workforce demand for skilled 
construction workforce, public high schools continue to focus 
on 4-year college prep curriculums. While this pathway is 
important, students should be offered opportunities to learn 
skills that prepare them for high-paying, in-demand careers 
that do not require a Bachelors degree.
    That said, the expansion of career and technical education 
options should never come at the expense of academic rigor or 
quality instruction and must clearly align with industry needs 
and post-secondary credentials. ABC and its partners are 
leading the charge to align our education system with future 
workforce demands. Construction industry and education 
stakeholders established a Craft Workforce Development 
Taskforce which created a strategic road map entitled 
``Building Louisiana's Craft Workforce.''
    The task force has ensured that an industry-recognized and 
academically rigorous construction CTE curriculum will be 
consistently delivered across Louisiana's training providers. 
The Louisiana Community and Technical College System and the 
Louisiana Department of Education have adopted the curriculum 
of the NCCER, which blends classroom instruction with hands-on 
training that articulates to post-secondary credential and 
community college programs. The training providers are focused 
on leveraging capacity at high schools, as well as leveraging 
assets such as facilities and funding with private providers. 
Training delivery includes compressed schedules for industry-
based certification and even weekend alternatives.
    The Louisiana State Government has also enacted innovative 
education reforms such as Course Choice, which gives high 
school students the option to choose from a diverse range of 
courses, including core academics, college preparation, and 
career training. Through Course Choice students can customize 
their learning path by gaining industry-based certifications in 
addition to earning high school and college credits. The 
program provides all Louisiana students equal access to career 
training and a head start on a post-secondary credential and 
ultimately a career.
    Course Choice can serve as a catalyst to recruit and train 
capable young people to either step into higher wage 
construction jobs or continue on to complete post-secondary 
courses. To achieve this, Course Choice provides that students, 
parents, and school counselors collaborate to make sure 
students register in courses that are appropriate for their 
age, interest, and capabilities. As a Course Choice provider, 
ABC is offering electrical, pipefitting, and welding to 34 
students.
    Our challenge ahead is to focus our current resources to 
support CTE programs for in-demand industries that provide 
students with innovative and flexible training options that 
stretch from high school to advanced post-secondary 
credentials. This includes promoting new and existing 
partnerships between industry, government, and education 
providers while establishing clear accountability indicators 
and easily understood measures of success.
    On behalf of the Associated Builders and Contractors 
Pelican Chapter, I would like to thank the committee for 
holding today's hearing on this very important subject. Thank 
you.
    Chairman Rokita. Excellent, Mr. Bargas. Thank you.
    [The statement of Mr. Bargas follows:]

 Prepared Statement of Alvin M. Bargas, President, Associated Builders 
                 and Contractors (ABC), Pelican Chapter

    Chairman Rokita, Congressman Grijalva, and members of the 
Subcommittee on Early Childhood, Elementary, and Secondary Education: 
Good morning and thank you for the opportunity to testify before you 
today on ``Preparing Today's Students for Tomorrow's Jobs: A Discussion 
on Career and Technical Education and Training Programs.''
    My name is Alvin Bargas. I serve as the president of Associated 
Builders and Contractors (ABC) Pelican Chapter located in Baton Rouge, 
Louisiana. ABC is a national nonprofit trade association representing 
22,000 members from more than 19,000 construction and industry-related 
firms. Founded on the merit shop philosophy, ABC and its 72 chapters 
help members develop people, win work and deliver that work safely, 
ethically, profitably and for the betterment of the communities in 
which ABC and its members work. The Pelican Chapter has a total 
membership of 438 companies.
    The Pelican Chapter's volunteer leaders are committed to training a 
safe, highly skilled construction workforce. Education and training 
will always be a win-win situation for both the employer and the 
employee. With nationally accredited curricula developed for the 
construction industry, the Pelican Chapter is training hundreds of men 
and women in industry-related specialties to meet and exceed the most 
exacting standards in the country. With the clout and knowledge 
provided by some of the most qualified instructors in the U.S., ABC 
trained workers tend to receive higher wages and experience more job 
satisfaction and greater job retention.
    The Pelican Chapter offers construction craft education programs at 
its Baton Rouge and Lake Charles training centers. Currently, the 
training centers have a combined enrollment of more than 1,900 high 
school and adult students. Since 1983, ABC Pelican Chapter member 
contractors and industry-related partners have privately funded more 
than $43,000,000 in training costs.
    Further, ABC has developed partnership agreements with 43 high 
schools in 17 school districts. This partnership includes 76 classes 
with more than 1,100 students per year in high-demand trades such as 
welding, electrical, carpentry and pipefitting. The Pelican Chapter 
also engages high school students through craft competitions, tuition-
free summer training courses, career counseling and a three-day Build 
Your Future event that reaches more than 900 students. These 
achievements would not exist without the committed support of the 
construction industry. In addition to funding, ABC members alone donate 
more than $50,000 per year in materials and equipment. More 
importantly, our members volunteer 1,600 hours per year in classrooms 
and when students graduate from school, ABC contractors put them to 
work.
    In the wake of hurricanes Katrina and Rita, Louisiana faced a major 
challenge of recruiting and training a skilled workforce to rebuild the 
state. In response, ABC brought together construction industry and 
education stakeholders, including Louisiana Community and Technical 
College System (LCTCS), Louisiana Department of Education, organized 
labor, Louisiana Workforce Commission (LWC), Board of Supervisors of 
Higher Education, as well as industry groups such as the Greater Baton 
Rouge Industry Alliance, New Orleans Business Roundtable and the 
Southwest Louisiana Construction Users Council--all of which represent 
Louisiana's vital refining and petrochemical end users. With ABC's 
leadership, the coalition's mission was to create a strategy to 
recruit, train, and retain a safe, skilled and productive construction 
workforce. This strategy was published in ``Recommendations for 
Confronting the Skilled Construction Workforce Shortage in Louisiana'' 
in October 2006.
    Louisiana's construction industry now faces another workforce 
challenge due to new technologies in the extraction of natural gas and 
a renaissance in oil refining and chemical production. Project 
announcements in excess of $60 billion in new construction, plus the 
expansion of existing facilities is driving the need for skilled 
workers. The LWC is predicting 35,000 new workers over the next four to 
five years may be necessary. This challenge will be exacerbated by our 
aging workforce--an estimated 17 percent of current construction 
workers nationwide will retire in the next decade. Retirements coupled 
with career changes, promotions to management, business formations, 
etc. will drive demand in Louisiana for an additional 51,300 workers, 
assuming an attrition rate of only 10 percent.
    Even with an exploding demand for a skilled construction workforce, 
most secondary school systems are not structured to deliver a high 
level of technical education. Public high schools almost exclusively 
focus on the four-year college prep curriculum for all students. While 
this pathway is important, students should be offered opportunities to 
learn skills that prepare them for the many high paying, in-demand 
careers that do not require a bachelor's degree. That said, the 
expansion of Career and Technical Education (CTE) options should never 
come at the expense of academic rigor or quality instruction and must 
clearly align with industry workforce needs and post-secondary 
credentials. Louisiana must prepare its young people for success in the 
classroom and in the workplace.
    In Louisiana, ABC and its partners are once again leading the 
charge to make our education system more closely aligned with future 
workforce demands. In collaboration with construction industry and 
education stakeholders and organized labor, a Craft Workforce 
Development Taskforce (Taskforce) was established. This broad-based 
Taskforce has created a strategic roadmap titled ``Building Louisiana's 
Craft Workforce.''
    I am pleased to report that we are already making progress in this 
effort. In a major step forward, the Taskforce has ensured that an 
industry recognized and academically rigorous construction CTE 
curriculum will be consistently delivered across Louisiana's training 
providers. In an effort to bring consistency and transferability to the 
curriculum that training providers use in the classrooms and labs, the 
LCTCS and the Louisiana Department of Education have adopted the 
curriculum of the NCCER, a not-for-profit 501(c)(3) education 
foundation. This curriculum blends classroom instruction with hands-on 
training that articulates to post-secondary credential and community 
college programs.
    Aligning industry-recognized curriculum with community and 
technical colleges, high schools, and ABC allows students and 
instructors to easily transition from one provider to another depending 
on personal needs and capacity requirements.
    With facilities statewide in strategic locations, the LCTCS serves 
as the lead training partner. Training providers are focused on 
leveraging capacity at high schools as well as leveraging assets such 
as facilities and funding with private providers, which includes ABC 
and the AFL-CIO. Training schedules have been amended to accommodate 
varying demand, such as compressed schedules for industry based 
certifications (NCCER and American Welding Society) and evening and 
weekend class alternatives.
    Training providers are also sharing a pool of instructors that can 
be deployed to various locations based on need. Web enhancements are 
being completed by the LCTCS and LWC.
    The Louisiana state government also is enacting innovative 
education reforms that will provide better opportunities for students 
to access CTE. Louisiana's Governor and state legislators collaborated 
with the Board of Elementary and Secondary Education (BESE) to create 
Course Choice, which gives high school students the option to choose 
from a diverse range of courses--including core academics, college 
preparation and career training--that are offered by a range of 
providers.
    Through Course Choice, students can customize their learning path 
to prepare for higher education and careers. The program offers them 
opportunities to gain industry-based certifications, in addition to 
earning high school and college credit. Course Choice is an innovative 
approach to provide all Louisiana students equal access to not only 
career training, but a head-start on a postsecondary credential and 
ultimately a career.
    ABC believes that innovative reforms like Course Choice can serve 
as a catalyst to recruit and train capable young people to either step 
into a higher-wage construction job based on their skills or continue 
on to complete the post-secondary courses they need to advance in their 
careers. To achieve this, Course Choice provides that students, parents 
and school counselors collaborate to make sure students register in 
courses that are appropriate for their age, interests and capabilities. 
From approximately 100 applicants, the BESE and the Department of 
Education selected 21 course providers, including the Pelican Chapter 
and LCTCS, which reach more than 3,000 Louisiana students. As of August 
2013, ABC is offering electrical, pipefitting and welding Course Choice 
programs and has about 34 students enrolled.
    Building America's construction workforce to meet demand is going 
to require new and innovative ideas, as well as cooperative 
partnerships among stakeholders from a myriad of public agencies and 
private entities.
    The challenge ahead is to focus our current resources to support 
CTE programs for in-demand industries that provide students with 
innovative and flexible training options that stretch from high school 
to advanced postsecondary credentials. This effort includes promoting 
new and existing partnerships between industries, government, and 
education providers while establishing clear accountability indicators 
and easily understood measures of success.
    There is a renaissance in the foundations on which Louisiana 
delivers career and technical education. It is a renaissance that will 
touch thousands of Louisiana youth, not to mention underemployed and 
unemployed adults. We are on the cusp of doing our part to rebuild 
America's middle class by putting people to work in high paying careers 
in construction.
    On behalf of Associated Builders and Contractors Pelican Chapter, 
I'd like to thank the subcommittee for holding today's hearing on this 
important subject. Mr. Chairman, this concludes my formal remarks. I am 
prepared to answer any questions you and the other members of the 
subcommittee may have.
                                 ______
                                 
    Chairman Rokita. Good morning, Dr. Harrity. You are 
recognized for 5 minutes.

            STATEMENT OF SHEILA HARRITY, PRINCIPAL,
                WORCESTER TECHNICAL HIGH SCHOOL

    Ms. Harrity. Chairman Rokita, Congressman Grijalva, and 
members of the subcommittee, thank you for inviting me here 
today to discuss career and technical education and training 
programs. My name is Sheila Harrity, and I am the proud 
principal of Worcester Technical High School in Worcester, 
Mass. I also just received a huge honor of being selected as 
the 2014 MetLife/NASSP National High School Principal of the 
Year.
    Worcester is the second-largest city in New England, and 
Worcester Tech is the largest of seven high schools in the 
city. We have 1,400 students in 24 different technical programs 
within 4 small learning communities. Sixty-three percent of our 
students qualify for free or reduced lunch, 19 percent are 
special ed, and the ethnic backgrounds reflect the city 
demographics.
    Previously Worcester Tech was the lowest-performing high 
school in our city and one of the poorest-performing vocational 
schools in our State. Presently we have a 92 percent first-time 
passing rate in English language arts, 84 percent in math, 96 
percent in science, and last year 96.4 percent of our students 
graduated in 4 years. The achievement gap has decreased 
significantly and in some groups is nonexistent.
    Students are prepared for success with a rigorous 
curriculum, including a variety of advanced placement courses 
that combines academic with hands-on experience in school and 
in the workplace through internship and cooperative educational 
opportunities. They graduate with all their academic 
requirements and with industry recognized national 
certifications. Our students are graduating college and career 
ready. Eighty-two percent went on to higher education, 13 
percent went directly into the world of work, and 2 percent 
joined the military.
    Worcester Tech has over than 350 business and industry 
advisors that contribute to the direction and success of the 
school and its students. The advisors consist of 
representatives of local business and industry related to the 
programs, organized labor, and post-secondary institutions, 
parents, guardians, students, and representatives from 
registered apprenticeship programs. They are integral partners 
to our program providing direction on training, equipment, 
certification, licensure, education, and career opportunities. 
Each technical program works to provide industry-recognized 
credentials, as well as college credits to expand each 
student's opportunity for post-secondary success.
    Our allied health students graduate with a high school 
diploma and seven college credits, a certificate in allied 
health, certification in CPR, first aid, certified nursing 
assistants, home health aide, and EMT. In our IT program 
students graduate with up to 18 college credits from 
Northeastern University, as well as being certified in A+ and a 
Certified Cisco Networking Associate.
    With the assistance of business and higher education 
partners we receive new equipment at no or reduced cost while 
the sponsors benefit by having students trained on their latest 
equipment. A donation from Harr-Toyota has allowed us to create 
a 16-bay service center furnished and equipped with state-of-
the-art automotive technology servicing over 250 vehicles a 
month.
    We are committed to building partnerships with local 2- and 
4-year colleges and universities. Our Tufts at Tech animal 
clinic was created by a school partnership with Tufts 
University and provides affordable animal care for low-income 
families in the Worcester area. Tufts University funds a 
veterinarian to run the clinic and our students work alongside 
the doctor providing animal care.
    Two years ago Worcester Tech became a STEM Career and 
College Innovation School, which created a pipeline for our 
students to obtain STEM jobs upon graduation or study STEM-
related fields in college. With this 21st century focus we are 
training students to meet the employment demands of the area's 
growing biomedical, technology, and manufacturing industries. 
These partnerships will keep jobs in Worcester for another 100 
years and keep our city strong and viable.
    Through the leadership efforts of our manufacturing and 
construction instructors our students worked alongside elite 
college engineering students from Worcester Polytechnical 
Institute to develop and build a modular, zero-energy home that 
competed in the U.S. Department of Energy Solar Decathlon, 
which was held in Datong, China. This project helped them hone 
their skills on the latest technologies and their 
representative fields, and see the fruit of their labors in a 
truly once-in-a-lifetime global cultural experience.
    Successful technical schools require strong links to the 
community, business and industry, and academic institutions. 
Our school's success and the city's success are intertwined. 
Worcester Tech is part of an economic engine coordinating the 
needs and desires of industry for our highly trained, adaptable 
workforce with the needs and desires of our students to secure 
good-paying, rewarding jobs in the field of their choice.
    Mr. Rokita, this concludes my prepared testimony, but I 
would be happy to answer any questions you or other committee 
members may have. Thank you.
    Chairman Rokita. Thank you, Doctor.
    [The statement of Ms. Harrity follows:]

   Prepared Statement of Dr. Sheila M. Harrity, Principal, Worcester 
            Technical High School, Worcester, Massachusetts

    Chairman Rokita, Congressman Grijalva, and members of the 
subcommittee: Thank you for inviting me here today to discuss career 
and technical education and training programs. My name is Sheila 
Harrity and I am the proud principal of Worcester Technical High School 
in Worcester, Massachusetts. I also just received the huge honor of 
being selected as the 2014 MetLife/NASSP National High School Principal 
of the Year and would like to speak on behalf of my fellow middle and 
high school leaders.
    Worcester, Massachusetts is the second largest city in New England. 
Worcester Technical High School is the largest of seven high schools in 
the City of Worcester. It has 1400 students in 24 technical programs 
within four small learning communities. The demographics of Worcester 
Tech consist of: 53% female, 47% male, 63% qualify for free or reduced 
lunch, 19% are special needs, ethnic backgrounds reflect the city 
demographics. Worcester Technical High School has met Adequate Yearly 
Progress (AYP) for ``No Child Left Behind'' for five out of the past 
six years. We exceeded our benchmarks in English, mathematics, and 
every sub-group. In 2012 and 2013 WTHS also met the Progress and 
Performance Index (PPI) both in the Annual PPI and the Cumulative PPI.
    In the past seven (7) years at Worcester Technical High School, 
students' Massachusetts Comprehensive Assessment System (MCAS) exam 
scores have risen significantly. In English Language Arts, 92% of the 
students scored in the advanced/proficient categories, an increase of 
65%, with a less than 1% failure rate. In mathematics, 84% of the 
students scored in the advanced/proficient categories, an increase of 
49%, with a 2% failure rate. In science, 96% of the current 10th and 
11th grade students passed with a 4% failure rate. Presently, the Class 
of 2012 has a 96.4% four year graduation rate with a 1.5% drop out 
rate.
    Massachusetts, as well as other states in our nation, has seen 
increasing achievement gaps between white students and minority 
students. At WTHS, the achievement gap has decreased significantly and 
in some subgroups is non-existent. From 2006-2013, Hispanic students 
had a 65% gain in ELA and a 49% increase in math. Low-income students 
showed a 64% gain in ELA and a 50% increase in math. In addition, black 
students had a 48% gain in ELA and a 32% increase in math.
    Recognizing the need for Advanced Placement classes for the 
students at our school, administration applied for, and was accepted in 
a grant program associated with the National Math and Science 
Initiative. The Massachusetts chapter, Mass Insight, helps provide 
inner city schools with funds for books and supplies, professional 
development, and student support in an effort to help close the 
achievement and access gap for many underserved students in the inner 
city. In 2008, Worcester Tech began the school's entry into Advanced 
Placement with AP Biology. The school now offers AP Language, AP 
Literature, AP Statistics, AP Computer Science, AP Environmental 
Science, AP Physics and AP Calculus. In the past 4 years, Worcester 
Technical High School has increased student enrollment from 18 students 
to 183.
    Students are prepared for success with a rigorous curriculum that 
combines academics with hands-on experience, in school and in the 
workplace, through internships and cooperative education opportunities. 
They graduate with all academic requirements and with industry-
recognized national certifications. Worcester Technical High School 
graduates are graduating college and career ready. The profile of the 
2013 graduates is: 82% went on to higher education, 13% went directly 
into the world of work, and 2% joined the military.
    Guiding the school, WTHS has over 350 industry advisors that 
contribute to the direction and success of the school and its students. 
These 350 individuals create both the General Advisory Board and the 
Program Advisory Committees. The Program Advisory Committees are 
established for each approved technical program and meet to review the 
curriculum, equipment, internships/co-ops, and career trends of the 
respective programs. The program advisory committees consist of 
representatives of local business and industry related to the program, 
organized labor, postsecondary institutions, parents/guardians, 
students, and representatives from registered apprenticeship programs, 
if applicable. The program advisory committees are integral partners in 
the provision of a truly college-career ready curriculum. They are the 
front lines for the industries that they represent. They provide 
direction to the programs as to the trends in their fields in regards 
to training, equipment, certifications, licensure, education, and 
careers. The technical instructors work diligently to both lead the 
committees and incorporate recommendations.
    Each technical program is working towards providing industry 
recognized credentials as well as college credits to expand each 
student's opportunities for post secondary success. Two specific 
examples are: in Allied Health students are graduating with a high 
school diploma, a certificate in Allied Health, certification in CPR/
First Aid, Certified Nursing Assistant (CNA), Home Health Aid, and EMT, 
which earns them seven college credits; in Information Technology 
programs students are graduating with up to 18 college credits from 
Northeastern University, as well as being certified in A+ and as a 
Certified Cisco Networking Associate (CCNA).
    With the assistance of business and higher education partners, 
entrustments are created to keep the schools' technical programs 
outfitted with state of the art equipment. Entrustments are mutually 
beneficial. The school receives new equipment at reduced or no cost 
while the sponsor benefits by having students trained on their newest 
equipment. As students enter the workforce, graduates will be skilled 
at using the sponsors' latest tools and technology, and be more likely 
to use those tools and products on the job. Also, businesses can use 
the facility to train their employees or demo their products for 
potential customers. For example, the Graphics Department has an 
entrustment with Oce. The partnership has created a cutting edge, 
advanced technology learning center for graphic arts. Through this 
partnership the school received over a million dollars in equipment and 
technology and is the print shop for the entire City of Worcester. The 
Automotive Technology Department is called the Harr-Toyota Service 
Center due to the generous donation from Harr-Toyota. Their $100,000.00 
donation has allowed us to create a 16 bay service center furnished and 
equipped with new state of the art automotive technology. This 
department services over 250 vehicles per month. Worcester Tech has 
also partnered with L'Oreal Redken to feature a full service beauty 
salon and day spa. The Worcester Credit Union was approached during the 
construction phase to provide a full service bank in the school. The 
Finance and Marketing students are employed, during the school day, to 
be the bank tellers. Since 2006, the bank has trained over 80 bank 
tellers for Central Massachusetts' needs.
    Worcester Technical High School is committed to building 
partnerships with local two and four year colleges and universities. A 
successful example of these partnerships is the Tufts at Tech animal 
clinic that was created by a school partnership with Tufts University 
to provide affordable animal care for low-income families in the 
Worcester area. Tufts University funds a veterinarian to run the clinic 
and WTHS students work alongside providing animal care. The clinic 
services over 250 animals per month and charges 75% less than what a 
regular vet would charge. Teachers created authentic learning 
experiences in all facets of this partnership. The carpentry, plumbing, 
and electrical students built the veterinary clinic. The graphic 
students created the name and designed the logo and brochures and the 
painting and design students created the signage.

Community
    Worcester Technical High School is committed to giving back to the 
community. Some examples include: at Green Hill Park, adjacent to our 
school, students have built the club house for the golf course with the 
Construction Academy, assisted in maintaining the barn yard zoo with 
the Veterinary Assisting Program, and provided land maintenance and 
water testing with the Environmental Tech Program. Students have 
refurbished several condemned multi-family homes within the city. They 
have also built a multi-family LEED certified house, from the ground 
up, for low-income Worcester residents. In addition, the students and 
staff designed and fabricated over 250 holiday wreaths that adorn 
downtown during the holiday season. This has brought great pride to our 
citizens and students alike.

STEM Focus
    Two years ago, Worcester Technical High School became a STEM Career 
and College Innovation School. Innovation Schools are schools that 
operate with more autonomy and flexibility with staffing, professional 
development, policies and curriculum. Innovation Schools implement 
innovative strategies to improve student performance while maintaining 
their public school funding. Worcester Technical High School, under the 
Innovation School legislation, has a focus on STEM (Science, 
Technology, Engineering, and Math) education where students are taught 
an integrated curriculum which will help them to obtain STEM jobs upon 
graduation or study STEM related fields in college. With this 21st 
century focus, WTHS is training students to meet the employment demands 
of the area's growing biomedical, technology, and manufacturing 
industries. These partnerships will keep jobs in Worcester for another 
100 years and keep our city/region strong and viable.
    An example of a STEM project with higher education partnerships is 
the Solatrium, a modular, zero-energy home that competed in the US 
Department of Energy's Solar Decathlon which was held in Datong, China 
this past summer. Through working with post secondary linkages and area 
business/industry, the manufacturing and construction programs at WTHS 
partnered with one of 23 teams selected to compete in China. The 
collegiate team composed of engineering students from Worcester 
Polytechnic Institute, U.S.; Polytechnic Institute of New York 
University, U.S.; and Ghent University, Belgium, designed the home but 
needed assistance and expertise with the construction phase. WTHS 
instructors from plumbing, electrical, HVAC/R, machining, and welding 
stepped forward to lead their students in completing this state-of-the-
art, green construction project on schedule. The modular home was built 
locally, tested, and then disassembled for shipment to China. Through 
the generosity of business/industry, six WTHS students and two 
instructors accompanied the team to China for reassembly and 
participated in the competition. Through the leadership efforts of the 
instructors at WTHS, inner-city students in an urban public school 
worked alongside elite engineering students to develop and hone their 
skills on the latest technologies in their respective trades and saw 
the fruit of their labor in a truly once-in-a-lifetime global cultural 
experience.
    In addition, with the help and support of our local community 
college and business sector donations, WTHS's Robotics Team competed in 
local and regional competitions which qualified the team to compete in 
the Vex World Championship competition in Anaheim, California last 
April. The WTHS Vex Robotics Team competed against 426 teams 
representing 24 different countries and won the Vex Robotics World 
Championship.
    Successful technical schools require strong links to the community, 
business and industry, and academic institutions. The school's success 
and the city's/region's success are intertwined.
    WTHS is part of the economic engine, coordinating the needs and 
desires of industry for a highly-trained, adaptable workforce with the 
needs and desires of our students to secure good paying, rewarding jobs 
in the fields of their choice.

Background
    Worcester Technical High School has been in existence since 1910. 
It is one of the first vocational schools built in the United States. 
Through the decades the facility became antiquated, the infrastructure 
incapable of being updated, and the equipment to train students was 
obsolete. In 1997, the New England Association of Schools and Colleges' 
Commission voted unanimously that the school be placed on probation for 
failure to meet the Commission's Standard 10 on School Facilities. In 
addition to an aging facility, Worcester Technical High School was the 
lowest performing high school in the city and one of the lowest 
performing vocational/technical schools in the state. In 2000, 97% of 
the students scored in the Needs Improvement and Failing Categories of 
the ELA MCAS exams, with 76% of these in the Failing Category. On the 
MCAS mathematics exams, 97% scored in the Needs Improvement and Failing 
Categories, with 85% of these students in the Failing Category. 
Students were not graduating career or college ready.
    The business community, state and local officials, educational, and 
community leaders, and parents came together to support, fund, and 
design a new $90 million, state of the art vocational/technical 
facility. Worcester Technical High School is designed using the small 
learning community model. Funding from the Carnegie Foundation Planning 
Grant and a federally funded Small Learning Community Implementation 
Grant allowed our large high school of twenty-four technical programs 
to divide into four small learning communities (SLCs). This model 
provided a personalized learning community that supported all students, 
both academically and technically. It also fostered integrated 
academics, project based learning by incorporating real world 
applications, and engaging students in their learning to properly 
prepare them for career and college.

Awards
    In 2006, School Planning and Management Magazine awarded our school 
the Impact on Learning Award in the category of non-traditional 
learning space. In 2009, WTHS was selected as one of 15 public high 
schools featured in How High Schools Become Exemplary by the 
Achievement Gap Initiative at Harvard University. In 2011, the National 
Association of Secondary School Principals (NASSP) selected WTHS as a 
MetLife Foundation-NASSP Breakthrough School. This national award is 
presented to five high schools and five middle schools across the 
country, and WTHS was the only high school selected in New England. The 
award recognizes schools achieving outstanding student gains in high 
poverty areas. I was one of two Breakthrough School award recipient 
principals (one middle and one high school) invited to present at a 
congressional briefing sponsored by the NASSP and the Alliance for 
Excellent Education Event at an event in May 2011. In 2012 and 2013, my 
school was selected as a Breaking Ranks Showcase School at the NASSP 
National Conferences. In 2013, I was selected as the Massachusetts 
Principal of the Year and as I already mentioned, just last week I was 
selected as the 2014 MetLife/NASSP National High School Principal of 
the Year.

The Role of the Principal
    When I had the good fortune to be hired to open the new WTHS in 
2004, I brought a unique combination of experience, knowledge, and 
skills with me. The success of our school is the result of many 
factors, and my contributions are squarely connected to my prior work 
and experience. The success of our school is the result of our 
redefining the role of vocational/technical education. In doing so, we 
have emphasized academic standards, teamwork, and motivation.
    My background in a suburban high school prompted me to develop 
programs with extensive college preparatory experiences for students 
and to hold them accountable to high academic standards. The technical 
components of our vocational programs provided an opportunity to make 
rigorous programming relevant.
    All important decisions at WTHS are made by the instructional 
leadership team, which includes me, the assistant principals, the 
vocational/technical director, and the department heads in the academic 
and technical areas. Our team works together to identify focused goals 
and targeted professional development and to develop a school culture 
that is marked by high expectations for teachers and students. Our team 
also makes every effort to coordinate professional development on the 
basis of intensive analysis of student data. Faculty members use that 
analysis to develop targeted interventions for students and respond to 
the high expectations of our school culture by becoming and remaining 
experts in their content fields.
    NASSP and our members strongly support the Carl D. Perkins Career 
and Technical Education Act, which we feel has great potential to 
promote a personalized learning environment for each student through 
strong curriculum and instruction, and will increase student 
achievement through integrated academic and CTE programs. As we think 
about the law's reauthorization, we hope that the committee will stay 
focused on the program's ability to: 1) prepare all students for 
postsecondary education and work opportunities; 2) support and enhance 
academic achievement and technical literacy; and, 3) improve high 
schools to ensure higher student achievement and graduation for all 
students.
                                 ______
                                 
    Chairman Rokita. Mr. Fischer, you are recognized for 5 
minutes.

STATEMENT OF JOHN FISCHER, DEPUTY COMMISSIONER, TRANSFORMATION 
           & INNOVATION, VERMONT AGENCY OF EDUCATION

    Mr. Fischer. Chairman Rokita, Congressman Grijalva, and 
members of the subcommittee, thank you for inviting me here 
today. As deputy commissioner of education in Vermont I am 
responsible for our innovation and transformation agenda, with 
particular focus on career and technical education. And this 
year I also have the honor of serving as president of the 
National Association of State Directors of Career and Technical 
Education Consortium.
    As you take up the important work of reauthorizing the 
Federal investment in CTE, I appreciate this opportunity to 
share insights based upon my experiences in Vermont, as well as 
those of my colleagues across the country. Let me start by 
saying the Federal investment in CTE is vitally important, and 
has been and continues to be a major driver of innovation. 
Twelve million students of all ages across the country 
participate in CTE programs in every type of community 
setting--urban, suburban and rural. And CTE programs are 
delivered at numerous types of educational settings at the 
secondary and post-secondary levels.
    This diversity is a strength and a reflection of CTE's 
responsiveness to its community, employers, and students. It is 
also this diversity that makes the unity behind a common vision 
for the future of CTE so unique. In 2010 the State CTE 
directors from across the country agreed to a common vision for 
CTE, charting a progressive agenda that leverages opportunities 
presented in the Perkins legislation. This vision, which has 
been provided as a supplement to my testimony, seeks to break 
down the silos between academic and technical education and 
between secondary and post-secondary education. It calls for 
strengthened partnerships with employers and demands data-
driven decision making. And it cements our commitment to a 
delivery system of programs of study organized around the 
national Career Clusters, which are 16 at this point. This 
vision guides our work, our Federal policy priorities, and my 
remarks today.
    CTE is leading educational innovation and is at the nexus 
of economic and workforce development. BMW located in South 
Carolina because of the promise of its workforce, and CTE was 
an important part of that State's commitment to ensure that BMW 
has the skilled workforce that it needs today and tomorrow. In 
my State, as is the case in many across the country, CTE is 
helping to restore and grow our economy. CTE is updating 
existing programs like automotive, HVAC, advanced 
manufacturing, all of these to reflect the changing workplace 
and technologies, and introducing new programs like biomedical, 
computer science, mechatronics, culinology, nano-technology and 
the like to support emerging demands. These programs prepare 
students with adaptable skills and knowledge--exactly what 
employers want. CTE is serving a vital role in keeping States 
and the U.S. economy growing and innovating.
    CTE's partnership with employers is one of the most 
treasured aspects of our history. From local mom-and-pop small 
businesses to industry giants like IBM, Marriott, Union 
Pacific, CMT, and Toyota, companies are investing in their 
future by building robust partnerships with education. From 
equipment donations to building curriculum, creating new 
schools, offering teachers and faculty externships, and 
providing students with internships, these business-education 
partnerships are essential to assuring our programs meet the 
needs of 21st century's economies.
    Today's economy requires students to be prepared for 
options, which means being prepared for both post-secondary 
education and careers. CTE programs allow students to explore 
careers and be challenged by real world, authentic experiences. 
They get to apply their knowledge and skills, learn how to 
become members of teams, find focus, motivation, and 
confidence. Students are often learning and earning at the same 
time, gaining portable, industry and post-secondary credentials 
along the way.
    Dual and concurrent enrollment has been a successful CTE 
policy in Vermont and across the country. Research has found 
that dual-enrollment students were more likely to earn a high 
school diploma, go on to college, persist at that level, and 
have a higher post-secondary grade point average than their 
peers. Not only do these opportunities give students a head 
start in post-secondary education, but lessens the college debt 
load. For example, at Ballard Memorial High School in Kentucky 
students in the health science program have the opportunity to 
graduate from high school and earn an associate degree. This is 
college and career readiness and this is today's CTE.
    With Perkins funding and requirements as a national 
catalyst, CTE is transitioning its delivery model to programs 
of study, organized around the 16 Career Clusters. Driven by 
high-quality college and career ready standards, through the 
Common Career Technical Core, there is strong evidence that 
programs of study are producing positive outcomes, including 
better test results, better secondary GPAs, and improved 
progress toward graduation.
    In my State, programs of study are playing a 
transformational role in ensuring that our most rural 
communities have access to high-quality CTE. In urban centers 
like New York, LA, Chicago, CTE is transforming high schools. 
This is a matter of equity. No matter your zip code, gender, 
socioeconomic status, or race, all students should have access 
to programs that prepare them to be both college and career 
ready.
    And finally, none of this matters unless we have evidence 
of outcomes. In Vermont the graduation rate for CTE students is 
93 percent compared to our overall graduation rate of 87 
percent, and this is not unique to Vermont.
    Chairman Rokita. Thank you Mr. Fischer.
    Mr. Fischer. Thank you very much.
    [The statement of Mr. Fischer follows:]

Prepared Statement of John Fischer, Deputy Commissioner, Transformation 
               & Innovation, Vermont Agency of Education

    Thank you for the opportunity to share my thoughts on Career 
Technical Education, or CTE. As the Deputy Commissioner of Education in 
Vermont, I am responsible for our innovation and transformation agenda, 
with particular focus on CTE, including standards, assessments, 
accountability, educator quality, school effectiveness, Federal 
programs, and public assurance of our State education system.
    This year, I also have the honor of serving as the President of the 
National Association of State Directors of Career Technical Education 
Consortium. Established in 1920, the Consortium serves as the 
professional society of state and territory agency heads responsible 
for public CTE at the secondary, postsecondary, and adult levels in all 
fifty states, five U.S. territories, and the District of Columbia.
    As you take up the important work of reauthorizing the federal 
investment in Career Technical Education, I appreciate the opportunity 
to share insights based not only upon my experiences in Vermont, but on 
those of my colleagues across the country. The federal investment in 
CTE is vitally important and has been, and continues to be, a major 
driver of change and innovation in CTE.
    If I were to ask you ``What is Career Technical Education?'' many 
of you would have different answers. These responses would be driven by 
your own experiences and observations of CTE programs in your district. 
And none of your answers would be wrong. This is because CTE is diverse 
and responsive to the needs of the community, students and employers it 
serves.\1\ CTE serves 12 million students of all ages--middle school 
through adults--across the country.\2\ There are CTE programs in every 
state and in every type of community setting--urban, suburban and 
rural. And CTE programs are offered at myriad types of educational 
settings--comprehensive high schools, career academies, theme-based CTE 
high schools, community colleges, technical colleges, regional 
technical centers, and technical institutes. This diversity is a 
strength and a testament to the responsiveness of the CTE leadership 
and programs. But it is also this diversity that makes the unity behind 
a common vision for the future of CTE so unique and compelling.
High-Quality CTE: Preparing Students for Jobs of the Future
    In 2010, in recognition of the changing economic forces, and to 
further advance the CTE field, State CTE Directors agreed upon a common 
vision for CTE. This vision was informed by key stakeholder groups in 
industry, the broader education community, and government 
representatives. The vision, agreed to by all the states, charted a 
progressive agenda that leveraged the opportunities presented by the 
federal legislation. The vision honors the rich history of vocational 
education. It holds us accountable for the ongoing transformation of 
programs to be responsive to the needs of the economy. And it charts a 
bold and progressive course for the future that seeks to break down the 
silos between academic and technical education, and between secondary 
and postsecondary education. It calls for employers to be co-
developers, co-owners of CTE programs. It demands data-driven decision-
making. And it cements our commitment to a delivery system organized by 
the 16 Career Clusters(r) and delivered through comprehensive programs 
of study.
    This vision guides our federal policy priorities and our actions, 
and is comprised for five inter-connected principles:
    Principle 1: CTE is critical to ensuring that the United States 
leads in global competitiveness.
    Education is critical to ensure the global competitiveness of the 
United States, and some stakeholders and policymakers even consider it 
an issue of national security. State CTE Directors recognize the 
importance of delivering CTE programs that meet the needs of the labor 
market and the global economy and, thus, drive the nation's ability to 
compete globally.
    How is CTE responding to the global economy? In the southeastern 
part of the United States, CTE is part of state economic development 
strategies. States like South Carolina, which worked with BMW to build 
their U.S. operations in Greenville/Spartanburg. Or Alabama, which is 
home to a Toyota plant. Oklahoma brought in the aerospace industry. 
Louisville, Kentucky, has GE. And right outside the beltway, Virginia 
won the bid for VW. These companies are locating to these states 
because of their workforce--and CTE plays an important part of ensuring 
that current and future workers are prepared for careers in that 
regional economy.
    Also, CTE is introducing new programs to meet the needs of the 
modern economy like mechatronics, culinology, biotechnology, nano-
technology, green energy, etc. Today's CTE students are prepared with 
adaptable skills and knowledge for the ever-changing economy. These 
students have focus. They have drive. They have expertise. They have 
work experience, in large part due to their participation in the Career 
Technical Student Organizations. They have what employers want. At a 
time when employers complain that graduates are not prepared to fill 
job vacancies, CTE is delivering. If you attend national Career 
Technical Student Organization competitions like SkillsUSA, which was 
held in Louisville this summer, you'll see students walk away with not 
only a medal of recognition for their performance in a particular 
competitive event focused on technical skills, but also multiple job 
offers which often include support for continued education.
    Another example of this innovation and responsiveness to the needs 
of the economy and the demand of the modern learner is the Vermont 
Virtual AcademySM. The virtual academy provides an alternative to the 
traditional in-classroom k-12 experience and instead allows students to 
learn at their own pace in an environment of their choosing through 
their computer and an Internet connection. Increasingly, online schools 
such as Vermont's Virtual Academy have helped to improve student 
performance and achievement through a more flexible and modern delivery 
system. This blended learning approach lends itself well to Vermont's 
priority Career Clusters, Information Technologies and STEM. This 
dynamic and innovative educational programs seeks to fulfill the 
constantly evolving needs of every student.
    I recently heard about a student who was able to take part in this 
program. Kevin, a student at Spaulding High School in Vermont, is 
involved in a number of team sports for his school along with a 
leadership position on the student council. He is also a budding 
entrepreneur and recently opened his own lawn care business. 
Ultimately, he would like to go on to college and become an Engineer. 
According to Kevin, ``The things I read and learn in my class each day, 
make me feel more confident in what I plan on doing after college.'' 
The CTE programs and blended learning opportunities such as our Virtual 
Learning Academy offered through Vermont's Virtual Learning Cooperative 
have helped clearly Kevin realize his full potential.
    Principle 2: CTE actively partners with employers to design and 
provide high-quality, dynamic programs.
    CTE's partnership with employers is one of the most treasured 
aspects of our history and continues to be at the heart of our programs 
today. Our vision statement calls for an even stronger partnership with 
employers by having business and industry having an increased role in 
the design and delivery of CTE programs of study.
    Across the nation, CTE leaders are collaborating with business and 
industry. For example, Union Pacific Railroad works with local schools 
through their Direction Recruitment Education and Mentoring (DREAM) 
program in which employees provide students with career, educational 
and social guidance. The mentoring program serves as a vehicle to 
develop students' self-esteem and confidence in their personal and 
career ambitions as they explore the business world.
    Partnerships with employers provide students with real-world and 
real-work problems to solve. They provide teachers and faculty with 
externships and students with internships, work-based learning 
experiences and mentorship. These experiences are essential for 
students to test the waters and gain early exposure to a variety of 
career fields. This exploration of what students like to do and are 
good at can help them find focus and confidence--which leads to higher 
aspirations. We see this over and over.
    We believe federal CTE legislation can help promote improved 
employer-education engagement and partnerships, including requiring 
local advisory committees comprised of employers and education 
stakeholders to actively partner in the design and delivery CTE high-
quality programs of study. Further, comprehensive career guidance and 
development programs and personalized learning plans beginning in 
middle school are essential to helping expand access to CTE and 
ensuring more students have the support they need to learn about 
careers, explore options, understand the necessary course of study and 
experiences essential to be successful in their college and career 
journey.
    Principle 3: CTE prepares students to succeed in further education 
and careers.
    As described earlier, CTE has evolved considerably over the last 
decade. High-quality CTE programs prepare students to be successful by 
providing adaptable skills and knowledge, thereby ensuring flexibility 
to transition careers as interests change, opportunities emerge, 
technology advances, and the economy transforms. It is no longer 
acceptable or appropriate to talk about college or careers. It must be 
college and careers.\3\
    This transformation in expectation from ``or'' to ``and'' is 
underscored by the data. Researchers project that, by 2020, 35% of jobs 
will require at least a bachelor's degree and 30% will require some 
postsecondary education.\4\ Focusing on preparing secondary CTE 
students for postsecondary education is paying off; the college 
attendance rate for CTE students increased by nearly 32% between 1982 
and 1992, and the trend continues.\5\ Even so, more work needs to be 
done. Only 70% of high school graduates study at a postsecondary 
institution immediately after high school, and far fewer complete a 
degree or credential.\6\ Improving transitions between secondary and 
postsecondary education is one of the most efficient ways to lead 
students to postsecondary success. Thus, the focus of the federal 
investment on preparation for both college and careers and the linkages 
between the learner levels is absolutely necessary.
    One way CTE has been successful at promoting learner level 
alignment is through decades of work around dual and concurrent 
enrollment. A recent Community College Research Center study found that 
dual enrollment students in Florida were more likely to earn a high 
school diploma, go on to college, persist at that level for longer, and 
have a higher postsecondary grade point average than their peers.\7\
    In recent years, efforts in states like Alabama, Colorado, Georgia, 
Ohio, West Virginia and Pennsylvania have expanded toward statewide 
initiatives to promote acquisition and portability of postsecondary 
credits while students are still in high school. In addition, we have 
seen the expansion of the inclusion of Advanced Placement courses in 
CTE programs of study. And there are some programs out there that 
really have taken this to a whole new level. Ballard Memorial High 
School in Ballard County, Kentucky provides students in the school's 
Health Science program the opportunity to graduate high school and earn 
an associate's degree from Western Kentucky Community & Technical 
College at the same time.
    These opportunities give students a head start on college and 
lessen the economic burden of attending postsecondary institutions. 
Employers, too, benefit from these partnerships as they are able to 
confidently hire qualified individuals to fill job vacancies.
    The quality of CTE educators cannot be overlooked as a major 
component to student success. In Vermont, state leaders have developed 
an innovative CTE teacher professional development program that will 
start in the 2013-2014 school year. Vermont will now not only have one 
of the best licensing programs for CTE teachers initially licensed to 
teach, but will now also have a seamless pathway to earning a 
Bachelor's degree in Career and Technical Education in a 3+2 program in 
partnership with the state college system. As the economy evolves and 
the needs of the labor market change, CTE students are uniquely 
positioned to thrive in a globally-competitive environment with the 
skills and knowledge base first acquired through rigorous CTE programs 
taught by knowledgeable, prepared CTE instructors.
    Principle 4: CTE is delivered through comprehensive programs of 
study aligned to the National Career Clusters Framework.
    States have largely embraced the National Career Clusters(r) 
Framework, which includes 16 Career Clusters and 79 Career Pathways, as 
the organizer for modern CTE. With Perkins funding and requirements as 
the national catalyst, CTE is transitioning its delivery model of CTE 
programs to programs of study. What's different about programs of 
study?
    Programs of study are designed to seamlessly link a student's 
secondary and postsecondary education through a structured sequence of 
academic and CTE courses that leads to a postsecondary-level 
credential. In a program of study, the standards, curriculum, and 
assessments are aligned, thereby ensuring coordination and seamless 
delivery of instruction and transitions for students. Relevant work-
based learning opportunities, Career Technical Student Organizations, 
comprehensive career planning, and leadership development are offered. 
And there is evidence that programs of study are producing positive 
outcomes. A study conducted through the National Research Center for 
Career and Technical Education last year found that students who were 
enrolled in a program of study had better test scores, better secondary 
GPAs, and made more progress towards graduation than their peers.\8\
    In addition, states have been working to add clarity and rigor to 
academic and technical instruction at the high school level, with the 
goal of better preparing students for college and careers and, thus, 
improving the nation's ability to be globally competitive. Perkins 
requires CTE programs to be aligned to rigorous, state-adopted academic 
and CTE standards that define what students should know and be able to 
do after completing instruction in a program of study. To that end, CTE 
has been an advocate for college and career-ready standards. Last year, 
State CTE Directors from 42 states, the District of Columbia and Palau, 
embraced the opportunity to improve CTE through high-quality, voluntary 
CTE standards, organized by Career Cluster, that define what students 
should know and be able to do after completing instruction in a program 
of study.
    Programs of study also promote coordination and collaboration 
between secondary and postsecondary partners. Consortia efforts that 
protect funding streams but promote statewide collaboration have proven 
vital to improving the capacity and scalability of CTE programs of 
study. Consortia can provide a unified state effort towards comparable 
quality of educational and training programming across all subsets of 
the population. They also ensure equitable geographic access for 
students, spanning middle school through high school, apprenticeships 
and college, as well as lifelong learning. Additionally, consortia help 
develop performance assessments of a valid and reliable nature to 
further improve the state's accountability system., help define new 
competency models and strategies to strengthen the link between CTE 
programs and the needs of the labor market and the economy.
    Principle 5: CTE is a results-driven system that demonstrates a 
positive return on investment.
    Finally, CTE embraces the critical importance of accountability and 
data-driven decisions. Data have consistently illustrated CTE's 
positive return on investment. The fiscal impact of a reduced drop-out 
rate, cost savings for employers, and other positive impacts on 
regional, state, and national economies show how investment in CTE 
results in positive economic gains on the whole. Wisconsin's technical 
colleges return a public benefit of $10.65 for every dollar invested, 
and taxpayers in Los Angeles County see a 10 percent return on their 
investment in the county's community colleges.\9\ These are just a few 
of the many examples where CTE is yielding positive economic results 
across the country.
    In Washington's Workforce Training and Education Coordinating Board 
commissioned one of the most compelling studies on the return on 
investment for CTE. Composed of nine representatives from business, 
labor, and government, the board found that CTE students in Washington 
earn more on average, and thus pay back the state's investment in their 
education through increased tax revenue. Ultimately, the return on 
investment for CTE students in Washington was an impressive seven times 
the original public investment.\10\
    Unfortunately, the sort of data Washington is able to compile is 
not available to every state due to limitations of their data systems. 
There is a need to create common definitions across the states, common 
performance measures across similar federal education and workforce 
programs and to increase alignment across K-12 education, postsecondary 
education and workforce data systems.
Conclusion
    In 2006, the language in the Perkins Act was updated from 
``vocational and technical education'' to ``career and technical 
education.'' This transition was more than just a name change. It 
represented a fundamental shift in philosophy from CTE being for those 
who were not going to college to a system that prepares students for 
both employment and postsecondary education. CTE leaders embraced the 
goals of Perkins IV. We strengthened the integration of high-quality 
academic and technical education programs, further emphasizing that 
students participating in CTE must meet the same rigorous academic 
standards as all other students. Many states went beyond the law's 
minimal program of study requirements. We made great progress in 
improving our data systems. And as a result, CTE students have 
succeeded. The national average graduation rate for CTE students is 
over 90 percent, while the average national graduation rate for all 
students is less than 74 percent.\11\ CTE students are out-performing 
academic benchmarks:


------------------------------------------------------------------------
                                          Target             Actual
           CTE indicator               performance        performance
------------------------------------------------------------------------
Reading/Language Arts (Secondary).               67%                72%
Mathematics (Secondary)...........               59%                63%
Technical Skill Attainment                       68%                75%
 (Secondary)......................
Technical Skill Attainment                       70%                82%
 (Postsecondary)..................
------------------------------------------------------------------------

    And 70 percent of CTE concentrators stayed in postsecondary 
education or transferred to a 4-year degree program (compared to the 
overall average state target of 58%) and transitioned to postsecondary 
education or employment by December of the year of graduation.\12\
    Career Technical Education is learning that works for America. My 
colleagues and I from across the nation believe that in that the 
federal investment is vital to ensuring that we achieve the vision we 
put forth in 2010--ensuring that all students have access to high-
quality CTE programs. As we look to the future, imagine an education 
and workforce system that rewards innovation, cohesively supports 
different learning styles, equally values different interests and 
talents, nimbly adapts and responds to technology and workplace needs, 
and prepares all students for career success through multiple pathways. 
Our nation's economic vitality hinges on our commitment to invest in 
and ensure the preparedness, efficiency, innovation, creativity and 
productivity of the U.S. workforce, and CTE is instrumental to our 
success.

                                ENDNOTES

    \1\ U.S. Department of Education, Office of Planning, Evaluation 
and Policy Development. National Assessment of Career and Technical 
Education: Interim Report, 2013. Of note, The share of public high 
school graduates who are CTE investors, earning 3 or more occupational 
credits, was 38% in 2004. The share of CTE explorers, who earn three or 
more CTE occupational credits in more than one occupational area, 
increased to 21% in 2004.
    \2\ U.S. Department of Education, Office of Vocational and Adult 
Education. Carl D. Perkins Career and Technical Education Act 
Consolidated Annual Reports, 2011-2012.
    \3\ Career Readiness Partners Council's Career Readiness 
Definition: http://www.careerreadynow.org/
    \4\ Carnevale, Anthony, Nicole Smith, and Jeff Strohl, ``Recovery: 
Job Growth and Education Requirements Through 2020,'' Georgetown 
University Center on Education and the Workforce, June 2013.
    \5\ U.S. Department of Education, Office of the Under Secretary, 
Policy and Program Studies Service, ``National Assessment of Vocational 
Education: Final Report to Congress,'' Washington, D.C., 2004.
    \6\ National Science Foundation, ``Science and Engineering 
Indicators 2012,'' Arlington, VA, 2012, http://www.nsf.gov/statistics/
seind12/c1/c1s4.htm.
    \7\ Karp, Melinda Mechur, Juan Carlos Calcagno, Katherine L. 
Hughes, Dong Wook Jeong, & Thomas Bailey, ``Dual Enrollment Students in 
Florida and New York City: Postsecondary Outcomes,'' Community College 
Research Center 37, February (2008): http://ccrc.tc.columbia.edu/media/
k2/attachments/dual-enrollment-student-outcomes-brief.pdf.
    \8\ Castellano, M., Sundell, K., Overman, L. T., & Aliaga, O. A., 
``Do Career and Technical Education Programs of study Improve Student 
Achievement? Preliminary Analyses From a rigorous Longitudinal Study,'' 
International Journal of Educational Reform, 21 (2012): 98-118.
    \9\ Association for Career and Technical Education, ``Investing in 
Career & Technical Education Yields Big Returns.''
    \10\ ``CTE: An Investment in Success,'' Workforce Training and 
Education Coordinating Board, Olympia, Washington, http://
www.wtb.wa.gov/Documents/CTESuccess.pdf.
    \11\ U.S. Department of Education, Office of Vocational and Adult 
Education, ``Carl D. Perkins Career and Technical Education Act of 
2006, Report to Congress on State Performance, Program Year 2007--08,'' 
Washington, D.C., 2010.
    \12\ U.S. Department of Education, ``FY 2010 Annual Performance 
Report,'' Washington, D.C., 2011. http://www2.ed.gov/about/reports/
annual/2010report/fy2010-apr.pdf.
                                 ______
                                 
    Chairman Rokita. Mr. Britt, you are now recognized for 5 
minutes.

       STATEMENT OF FRANK BRITT, CHIEF EXECUTIVE OFFICER,
                        PENN FOSTER INC.

    Mr. Britt. Thank you very much and good morning, Chairman 
Rokita and Congressman Grijalva and the esteemed members of 
this committee. My name is Frank Britt and I am the CEO of Penn 
Foster, one of the Nation's largest and most experienced 
providers of online and hybrid education in the career 
technical field. I appreciate the opportunity to share some 
perspectives this morning regarding this vital part of the 
education economy.
    I come to you today as a practitioner, as an active 
observer of CTE, and my perspective starts with several 
important assumptions. The first is that it is self-evident 
that CTE has worked and has improved the lives of millions of 
people due to dedicated faculty and administrators and strong 
State and Federal policies. Secondly, given that strong track 
record, there is a lot that has worked and a lot should be 
embraced going forward. This is not a part of the education 
economy that is broken, it is one that is thriving and can 
continue to improve for the future. Thirdly, change is upon us. 
Society is changing, education itself is changing, employers' 
expectations of workers are changing, and the reality is the 
learning habits of students is evolving in a digital world.
    It is in this context that I think there is a significant 
opportunity to build on the strong and vital role of CTE, the 
one that it already plays today in schools and in business 
across our country. I think we need to continue to lay out a 
road map and a platform for CTE that will further establish it 
in a contemporary context. That road map should be formulated 
by seasoned practitioners in the CTE industry as well as 
administrators, but it also needs to include people from 
outside the CTE industry to help shape the next generation of 
students and lifelong learners.
    As you have read in my submitted remarks, we have six 
recommendations, and I wanted to highlight just three of those. 
But what they share in common--and this is an important point--
is all of them have been implemented in other parts of the 
education economy and in other sectors of the corporate 
economy, and that is an important point to note. Our objective 
is to encourage the melding of proven best practices in CTE 
with the best practices and insights we have gained from other 
industries so we can optimize the student experience of CTE, as 
well as the return on investment.
    We have three recommendations particularly we thought worth 
noting. The first is diffuse project-based learning with the 
best of traditional practices to better personalize the student 
experience. This means project-based learning combined with the 
way traditional ground-based academics work to drive the best 
outcome for the students.
    Number two, we want to embrace digital learning. CTE 
faculty members have always needed to embrace new technologies 
given the disciplines they teach. Given that technology and 
software are essential to countless vocational fields already, 
we see embedding further digital tools in the learning context 
as a natural extension of what happens in the classroom and 
what should happen out of the classroom going forward.
    The third is a change in perception. The reality is that 
the middle-skills occupations are in fact in demand, 
extraordinarily respectable occupations, and drive stable 
lifestyles. In many cases it allows people to advance to middle 
management, even senior management positions. But as we also 
know, the degrees that prepare students for middle-skill 
careers are often misunderstood and underappreciated. The 
reality is that the alternative education career pathway is in 
fact compelling for millions of capable traditional learners 
and adults, and it needs to be encouraged by people and 
organizations of influence.
    There is a significant opportunity to make CTE a new way to 
think about the economy for millions of people, and we think 
the perception and branding of CTE needs to be evolved. It 
needs to become a mainstream solution that is embraced in the 
same way that traditional 4-year colleges are embraced. We all 
know that a 4-year degree may not be desirable or even 
practical for every student, or in some cases it maybe 
shouldn't be the first step. The reality of that is the 
trillion dollars in student loan debt.
    Our assertion is that students and adults alike should be 
encouraged to understand this vibrant set of career 
alternatives to help themselves and their families build a more 
productive life. This is a moment to lean in on affirming the 
power and the promise of CTE-enabled careers.
    In summary, we are supporters of CTE, we know it can play a 
vital role in helping address the acute skills gap in this 
country, which is likely to worsen with the resurgence of U.S. 
manufacturing. We have a 123-year history at our organization, 
including our 100,000 students today who participate in all 
aspects of our high school, our college, as well as our 
vocational programs and career programs. There is an imperative 
and an opportunity to change CTE in this country, and we think 
it is an exciting one that can improves everyone's lives. We 
appreciate the opportunity to share our perspectives on that 
subject.
    Chairman Rokita. Thank you, Mr. Britt.
    [The statement of Mr. Britt follows:]

         Prepared Statement of Frank F. Britt, CEO, Penn Foster

    Good Morning, Chairman Rokita, Congressman Grijalva, and esteemed 
members of the committee, my name is Frank Britt. I am the CEO of Penn 
Foster--a leader in career-focused online and hybrid education with a 
commitment to addressing the middle skills gap in America.
    The story of Penn Foster is rooted in training Americans with the 
technical skills needed to find jobs where they live. In 1869, in one 
of the largest mining disasters in the history of Pennsylvania, a 
massive fire caused the death of 110 workers, due in large part to a 
lack of training and expertise among the miners. This crippled the coal 
mines in the area and left people out of work and under-skilled. In 
response, newspaper editor Thomas Foster founded the International 
Correspondence School in 1890, to train miners on engineering and 
safety. Foster pioneered correspondence learning because his students 
did not have the means to travel every day to sit in a classroom. As 
the school reached its one millionth enrollment Thomas Edison, who 
authored one of its courses, remarked that home study was one of the 
greatest inventions of the 20th century. President Theodore Roosevelt 
agreed. He visited the Scranton campus and extolled the virtues of the 
school's study method. Soon Foster's programs grew and became more 
sophisticated, and the International Correspondence School became Penn 
Foster. In the years since, our institution has produced many notable 
alumni including Chrysler's former president Walter Chrysler, GM's 
former president Charles W. Nash and Dan Kimball, former Secretary of 
the U.S. Navy.
    Since our inception, more than 13 million people have enrolled in 
Penn Foster, which encompasses a high school, career school, and 
college. Today, Penn Foster enrolls approximately 150,000 students 
annually in programs consistent with traditional schools and community 
colleges, providing fully accredited high school diplomas, career 
programs and certificates, and bachelor's and associate degrees. Our 
Career School, College, and High School have all met the high standards 
of academic integrity set by the Accrediting Commission of the Distance 
Education and Training Council (DETC), a nationally recognized 
accrediting agency, and various other accreditation bureaus including 
regionally accreditation for Penn Foster High School and Career School 
by the Commission on Secondary Schools of the Middle States Association 
of Colleges and Schools.
    We focus on traditional age high school students through adult 
learners and partner with over 400 secondary and post-secondary 
institutions that use Penn Foster content and delivery platforms to 
expand their offerings. For example, Polk County School District in 
Florida uses Penn Foster's curriculum and platform to re-attract 
students who have dropped out of high school and help them graduate. We 
also attack the systematic issues of the drop-out crisis by 
contributing senior leadership and resources to the National Dropout 
Prevention Network, which has worked to create opportunities for all 
young people to fully develop academic, social, work, and life skills.
    Given that our students are often balancing full-time jobs and/or 
other familial responsibilities, Penn Foster has become an industry 
leader in crafting innovative solutions to keep them on-track. We 
employ a self-paced educational model based on subject matter mastery 
that allows our students to set their own timetables without falling 
behind while accounting for personal circumstances.
    Our student-centered approach extends to program cost and payment 
options. We make sure that our programs do not require students to take 
on excessive debt obligations. For example, the average starting salary 
for a Pharmacy Technician is $28,400. Penn Foster's Pharmacy Tech 
certificate program cost students less than $500 (over 60% less than 
most alternatives). For school districts using Penn Foster career 
electives and high school courses this means low cost options that fit 
within the school's budget and allow them to sponsor innovative models 
for educating their high school population.
    In addition, for individual consumers or students, paying for 
school is more manageable under our pay-as-you-go model. We do not 
accept federal student aid programs under Title IV of the Higher 
Education Amendments including Stafford Student and the Federal Pell 
Grant Program. Instead, monthly payments are calibrated to match 
academic progress and students' ability to pay, which better aligns 
objectives between students and the institution including our high 
school, career and college. For example, the cost of our associate and 
bachelor's degrees are about 30% less than community colleges and 70% 
less than traditional four year institutions.
    For many, our programs are a gateway to the respectable salary and 
stable lifestyle that accompany careers in vocations traditionally 
classified as ``middle-skilled.'' For others, we smooth the transition 
to higher education by simplifying the credit transfer process. This is 
nothing less than the democratization of education, as we offer our 
students access to the best in technology, community and academics, as 
well as a support system usually reserved for those who can afford high 
tuition and the accompanying loan payments. And by harnessing the 
benefits of scale economies, we are able to do so at a lower cost.
    Given our position as one of the nation's largest and most 
experienced providers of online instruction in Career Technical 
Education (CTE) at the high school and post-secondary level, we 
appreciate the opportunity to address the Subcommittee and offer 
recommendations to improve the funding, delivery, and promotion of CTE.
Recommendations to Make CTE More Efficient and Effective
    To date, a lot of good has been done. Lives have been changed and 
skills have been built, as institutions and dedicated faculty have been 
well-preparing students for careers in CTE. We are here today to talk 
about how to build on the strong foundation of CTE and evolve the 
system while innovating for the future. We have six recommendations to 
improve career and technical education in our country today:
    1. Employ project based learning to personalize the student 
experience
    2. Embrace digital learning
    3. Change the perception
    4. Stimulate innovation
    5. Promote data uniformity
    6. Reward competency, not accreditation
    We recognize the Subcommittee and Staff have deep expertise in a 
variety of issues related to CTE and the Perkins Act, and will direct 
our remarks to areas that may complement this panel's deep experiences. 
The basis of these viewpoints is as a practitioner, rather than a 
policy expert. We exist to provide education either directly to the 
learners, or support school districts, higher ed institutions and 
employers who seek alternative CTE delivery models. We share these 
perspectives based on directly interfacing with thousands of students 
each year, and as active observers of the incumbent delivery approaches 
and providers. Like many other organizations, we are seeking to 
navigate the new needs of the next generation CTE students, and be 
productive advocates and supporters of current faculty and 
administration and collaborate with them to better address the needs of 
both traditional and adult learners.

1. Employ project based learning to personalize the student experience
    Project-based learning (PBL) is an educational approach that 
focuses on real-life application of theories and lessons and is in 
practice in many leading CTE schools across the country. Students 
engaged in PBL pursue solutions to nontrivial problems by asking and 
refining questions, debating ideas, making predictions, designing plans 
and experiments, collecting and analyzing data, drawing conclusions, 
and communicating their ideas and findings to others. This provides an 
alternative to paper-based, rote memorization, teacher-led classrooms. 
Proponents of project-based learning cite numerous benefits to the 
implementation of these strategies in the classroom including a greater 
depth of understanding of concepts, broader knowledge base, improved 
communication and interpersonal/social skills, enhanced leadership 
skills, increased creativity, and improved writing skills.
    At present, the vast majority of funding is devoted to traditional 
infrastructure and practices. Instead, investments should be made to 
``mainstream'' PBL enabled by online and hybrid courses that are 
personalized to directly benefit students. In these student-centered 
models the role of faculty often evolves. Instead of spending all of 
their time reviewing material, they are focused on the application of 
the material and tailoring that teaching to the individual needs of the 
learner.

2. Embrace digital learning
    Much has changed since the Perkins Act was made law seven years 
ago, as more and more students are turning to custom CTE programs 
online.\1\ Yet, the Act does not recognize online or hybrid models 
under its definition of ``institution.'' Meanwhile, in the private 
sector, the service Khan Academy, a non-profit educational website 
whose mission is to provide ``a free world-class education for anyone 
anywhere,'' educates millions each day with little-to-no overhead. With 
260 million lessons and a staff of fewer than 100, Khan's results have 
been astounding. The innovation in their equation is simply the 
Internet itself, as noted by many leading experts, including Michael 
Staton, co-founder of Inigral.
    The Committee should continue to encourage use of the Internet and 
digital learning in education at every opportunity, especially to 
perpetuate peer-to-peer platforms and social media enablement. These 
adaptive learning engines will contain intelligent programs that 
understand and respond to each student's level of competency.
    For example, tech-enabled and hybrid educational delivery platforms 
can optimize total spending per student by using predictive tools that 
automate intervention and augment student-progress, while increasing 
faculty productivity and moving from hard copy text to digital content. 
The goal is to deliver a student experience that drives academic 
progress and has built-in tools to catch students before they struggle. 
This includes using personalized and adaptive learning systems for 
teachers. These systems are complemented by greater parental, business, 
and community engagement and work through partnerships with local 
employers. The results would be higher attendance rates, higher 
effectiveness as measured by staying in school, progression, and most 
importantly more career and college pathways.

3. Change the perception
    We recommend the public and private CTE institutions, together with 
the government, proactively educate the public on the value of careers 
in CTE fields. We have to be even more effective at communicating the 
narrative of why students and citizens should be compelled to embrace 
these careers. Explaining this story has always been essential, and now 
faces more complex marketing challenges as new social tools are 
introduced and mobile consumption becomes more prevalent. This will 
require new types of content, such as user generated reviews. To 
compete in that environment, CTE needs a national ``Got Job?''-style 
campaign, funded by the private sector, to reach its target audiences 
(including students and parents) and penetrate the national 
consciousness. Led by a cross-section of leading employers and/or 
industry organizations, this campaign needs to involve Committee 
members and others in positions of influence and esteem to highlight 
CTE fields as providing rigorous, challenging curricula that lead to 
college and career readiness. Americans need to see ``alternative 
pathways'' not as code words for less potential and low wages, but 
instead as a viable, creditable and highly pragmatic academic and 
career roadmap for a significant number of traditional and adult 
students.
    Historically CTE has suffered from negative perception, and 
flipping that perception may be the number one issue holding us back 
from filling these important jobs with skilled labor, and tackling the 
national jobs crisis.

4. Stimulate innovation
    Career technical education is a $30 billion industry and impacts 
millions of learners each year, yet it has been largely ignored by 
entrepreneurs, venture capital and top executives from leading 
companies. Innovation is the key force that shapes industries, and more 
talented leaders need to be attracted to the sector to help conceive 
approaches and take advantage of emerging practices from the new 
education economy. While there are highly successful and innovative 
schools, such as Gateway Technical College, their influence is 
constrained by geography. To attract large-scale innovators and new 
sources of capital to drive research and development the delivery model 
and economic and regulatory environments will need to change.
    CTE needs Perkins dollars directly focused on innovation grants, 
prizes and university collaboration to incentivize engagement and 
diversify the base of potential innovators.\2\ Furthermore, new 
parties, including proprietary schools, need to have a say in the 
updated version of the Perkins Act and the national CTE agenda. Online 
and hybrid learning models can offer more affordable career and 
technical education for students while also reducing labor and 
operational costs for schools. As a result of these savings, more 
funding can be freed up to directly benefit students.\3\
    This next-generation, technology-enabled career and technical 
education would simplify administrative and logistical tasks, leading 
to higher student and teacher satisfaction. For ground-based career 
tech schools partnering with the next generation providers can expand 
the radius of their coverage geographically, allow for new programs not 
offered today yet in demand locally, and also provide on-going 
continuing education to graduates. This will be of particular benefit 
to rural America where travel and class-size often constrain the 
ability of districts to offer CTE courses. Partnering with online CTE 
providers will ensure that rural students have the same access to high-
demand CTE professions as their urban and suburban counterparts.

5. Promote data uniformity
    Despite significant spending on CTE across the High School, 
Technical College and Career School sectors, the quality of unit-level 
and aggregate data on spending and student achievement is often 
elusive, contradictory, or out-of-date. For example, the basic 
definition of who and what is a K-12 CTE student varies across states 
and districts. Is a CTE student a ``CTE concentrator'' who takes 4-6 
CTE courses in one area, or is it any student who takes any CTE course? 
The definition of what constitutes a CTE course varies across states, 
districts and even schools. A world-class educational system cannot be 
modernized without better data and consistency for the sake of 
benchmarking and performance improvement management on behalf of 
students and investors. Similarly, inconsistencies in how and who 
provides tracking and reporting costs impact how a given state's 
delivery system is set up: e.g., New York has a regional service center 
model (BOCES) that delivers some (but not all) CTE programs for its 
member school districts. Other states deliver CTE programs in 
comprehensive high schools. Those variables impact administrative, 
transportation, instructional, and capital costs.
    Simplifying and unifying definitions and practices will save 
providers operating in multiple states time, money, and frustration, 
and will ultimately benefit students.

6. Reward competency, not accreditation
    Education is entering a transitional moment. Moving forward we 
should embrace the best of the traditional model while incorporating 
the advantages of a competency-based system. The need to assure the 
public that an institution meets standards and delivers on its promises 
will remain essential, but the future is a movement toward competency-
based education and away from credit-hour measures.
    One option is for CTE (over time) to embrace an employer-driven 
competency-attainment based system to complement credit hours.\4\ This 
will likely require panels of employers to set criteria for 
competencies needed to meet industry standards and regulation at the 
national level, which would eliminate, standardize or simplify state-
by-state restrictions and barriers. An early example of these 
principles in action includes The National Coalition of Certification 
Centers (NC3), which were established to implement and sustain 
industry-recognized portable certifications with strong validation and 
assessment standards. As CTE makes the transition to competency-based 
certification, the online education will be uniquely positioned to 
serve learners in a variety of fields including Vet Tech and Pharma 
Tech, where competency programs are already operational.
Career Technical Education (CTE) at the High School Level
    More than 850,000 K-12 students in the U.S. are classified as 
``vocational,'' which encompasses CTE fields and makes up just 2% of 
total students. The cost to educate these students is nearly $14,000 or 
20-40% greater than that of traditional academic instruction. In recent 
years approximately $13 billion has been spent annually by federal, 
state and local governments to support youth-focused vocational 
education systems across the U.S., with federal funding constituting 
only about 4-8% percent of all state and local spending.\5\ This is in 
addition to the $16 billion post-high school trade and technical 
school-industry.
    Penn Foster is striving to make career technical education more 
affordable by combining online instruction with practical hands-on 
training. Unlike many CTE alternatives, including both traditional and 
online options, Penn Foster is fixated on our students' long-term 
goals. This allows us to eliminate any instruction that is not central 
to our students achieving in their desired fields, reducing student's 
tuition with no degradation of value. We take the same approach in our 
work with corporate partners, for whom we provide low-cost employee 
training programs online in a targeted and personalized manner.
A Commitment to Career Training: Penn Foster and Job Corps
    Penn Foster's collaboration with Job Corps is just one example of 
our commitment to education innovation in career technical training 
with students who have struggled in the traditional system. Both Penn 
Foster and Job Corps are focused on bringing professional and 
educational opportunities to at-risk students and those who have not 
had success in the traditional system. Penn Foster operates in 50 of 
Job Corps' 125 centers around the nation, implementing our self-paced 
high school model and devising various innovative hybrid courses that 
combine online instruction with hands-on training. Since 2006, the 
partnership has worked by combining general high school requirements 
such as math or science with electives in a career track of the 
student's choice. Run simultaneously, Penn Foster provides the 
materials to help the students receive their diploma, while Job Corps 
provides them with the practical career training and support. An 
instructor is present at all times and helps the student decide on and 
prepare for their next exciting step, whether it's a job or college. 
When they complete the program students leave with more than just a 
diploma, they have a skill set that can help lead to a better life.
New Students and Career Paths
    Higher education is increasingly seen as a requisite in today's job 
market. Yet there are profoundly troubling signs that the U.S. is 
failing to meet its obligation to prepare millions of young adults. In 
an era in which education has never been more important to economic 
success, the U.S. has fallen behind many other nations in educational 
attainment and achievement. Within the U.S. economy, there is also 
growing evidence of a ``skills gap'' in which many young adults lack 
the skills needed for many jobs that pay a middle-class wage. 
Simultaneously, there has been a dramatic decline in the ability of 
adolescents and young adults to find work. Indeed, the percentage of 
teens and young adults who have jobs is now at the lowest level since 
World War II.
    As a result, the demographics of the ``typical student'' have 
changed and college students are no longer just 18-to-22-year-olds. 
They may be single working mothers in their 40s or grandparents in 
their 60s. They may seek traditional degrees or be part of the fastest 
growing career track--those pursuing career certificates. 
Significantly, the National Center for Education Statistics notes that 
36% of today's college students are over age 25, a group that is 
expected to grow by 20 percent between 2010 and 2020.\6\ As norms of 
age and income become obsolete, there is a need for more customization 
and flexibility in delivery methods to meet the needs of nontraditional 
students.
    Just as students' backgrounds have changed, so have their career 
paths. Today, a person's first job no longer becomes a lifelong career, 
and students need to be more versatile than in previous generations. 
According to leading experts, between 60 and 70% of the jobs required 
20 years from now do not exist today, a dramatic-yet-intuitive 
statistic given the countless number today's new careers that have only 
emerged over the past decade including in social media, green energy 
sustainability, cloud computing, and data science.
    According to the Center on Education and the Workforce at 
Georgetown University, the U.S. economy will create some 47 million job 
openings over the 10-year period ending in 2018. Nearly two-thirds of 
these jobs will require at least some post-secondary education. 
Therefore, applicants without post-high school education will fill 36 
percent of the job openings, or just half the percentage of jobs they 
held in the early 1970s. Moreover, the Center projects that 14 million 
openings will be filled by people with an associate's degree or 
occupational certificate. Many of those will be in ``middle-skill'' 
occupations such as electrician, construction manager, dental 
hygienist, paralegal and police officer. These jobs often have higher 
salaries than jobs held by those with bachelors' degrees. In fact, 27 
percent of people with post-secondary licenses or certificates--
credentials short of an associate's degree--earn more than the average 
bachelor's degree recipient. There will also be a huge number of job 
openings in so-called blue-collar fields like construction, 
manufacturing, and natural resources, which will provide nearly 8 
million openings, an estimated 2.7 of which will require a post-
secondary credential.
    Given the dynamic nature of the marketplace, it is more important 
than ever for educators to provide employment-focused education. As 
students look to train-up and acquire practical and marketable skills, 
educators must respond in kind by adjusting their methods to be more 
learner-focused. Ideally, the future of education will blend online and 
traditional learning experiences and be flexible, so that the material 
is available to the student on his/her own time and teaching and 
engagement is saved for the classroom.
    Penn Foster has helped answer the call with more than 200 
partnerships with secondary and post-secondary schools and 35 state 
workforce development boards. We're making content available and 
allowing students to learn at their own paces, while providing in-
person support and guidance to improve graduation rates.

Filling the Middle Skill Jobs of Today and Tomorrow
    For many Americans, ``higher education'' still means a four-year 
degree. However, with unemployment hovering around 7.5 percent and with 
many students graduating from four-year institutions unable to find 
jobs, our perception of the costs and benefits of education needs to 
change. Degrees that prepare students for middle-skilled careers are 
often ignored or rejected, but education leaders need to realize that, 
as valuable as four-year degrees may be, they are not practical for 
every student, especially given that these students are saddled with an 
average of $26,600 of debt overall,\7\ and $32,700 when graduating from 
for-profit colleges.\8\ Instead of ignoring middle-skilled careers, we 
need to embrace them as viable alternatives to traditional degrees that 
lead to high-demand careers, and ensure that associated education costs 
remain affordable and aligned with salary potential.
    Jobs traditionally known as ``middle-skilled'' will make up nearly 
half of all openings in the next 10 years,\9\ and yet there is a lack 
of infrastructure, support, and data to help middle-skill workers 
navigate the market to discover and attain these jobs. As a result, too 
many middle-skill workers are enrolling in four-year degree programs 
instead of gaining career-oriented training that would allow them 
instant access to the workforce. This inefficiency is increasing 
student debt and widening a middle-skills job gap, where students fail 
to meet the needs of employers who want to hire them.
    Like their white-collar counterparts, employers in middle-skilled 
career fields want their applicants to be job-ready. They do not want 
to have to spend large amounts of money training their employees. They 
want an employee equipped with both practical and relevant theoretical 
knowledge. That's where hybrid (or ``blended'') learning approaches 
come into play, allowing students to combine in-class hands-on 
instruction with online learning, contributing to increased 
productivity among students and reduced costs for institutions.
    Penn Foster is helping to close the ``skills gap'' with a variety 
of programs that give students access to equipment and first rate 
instruction in high-growth industries. Our engineering technology 
program, which prepares students for careers in manufacturing, is just 
one example. Despite well-documented shifts in the manufacturing 
industry, there is a dire need for new manufacturing professionals. In 
December 2012, there were 224,000 manufacturing job openings, but only 
155,000 hires, according to the Bureau of Labor Statistics. And these 
jobs generally pay well: sheet metal workers earn a median salary of 
$41,710 and diesel engine mechanics earn a median salary of $46,660, 
according to the Bureau of Labor Statistics. Considering that these 
careers do not require four years of post-secondary schooling, they 
represent a favorable return on investment.

Trade and Technical Schools: Meeting the Needs of a Growing Market
    The post-high school Trade and Technical Schools industry has 
experienced overall growth during the past five years despite the 
recession and substantial cuts in federal funding. The industry has 
been able to capitalize on the growing online education market, despite 
increased regulation. Spurred on by demand for training in areas of new 
technology, revenue grew 2.6% annually to $16.1 billion in the five 
years leading up to 2012.
    Changing labor market requirements have encouraged job seekers to 
choose vocational courses rather than apprenticeships and on-the-job 
training. Furthermore, the increasing cost of four-year colleges has 
caused some to seek alternative forms of education. While technical and 
trade schools still face competition from the Junior Colleges 
industry,\10\ future prospects are good. Downstream demand is expected 
to remain strong for workers in most trades, and increasing 
requirements for workers to hold formal certification will aid industry 
growth. Demand for healthcare professions will also provide a 
significant boost to the industry in particular. As the U.S. population 
ages, demand for medical technicians and nurse's aides will bolster the 
revenue of training schools, which is expected to increase at an 
annualized rate of 2.7% to $18.4 billion between 2013 and 2017.

Partnering with Employers, Responding to the Market
    Our more than 100-year CTE track record has positioned Penn Foster 
as the in-demand online and hybrid institution for construction, 
manufacturing, utility, and engineering firms looking to train and 
retrain employees. We have partnered with more than 1,000 institutions 
nationwide in that capacity, including the military. Last year 2,500 
military students took Penn Foster programs, because our model allows 
traveling, busy military families to get an education and advance their 
career goals and at a low price point. We also work with leading 
community colleges and corporations to develop turn-key solutions for 
high-growth industrial occupations such as electrician, welder and HVAC 
technician, and industries such as utilities, manufacturing and 
construction.
    These programs can reduce employee turnover by 40% while saving 
corporate clients millions of dollars, not to mention preventing 
devastating layoffs and improving on-site safety for workers and the 
public. In addition, they provide traditional blue collar workers with 
a ladder up into management positions.
    This understanding of the job market helps institutions better 
prepare students to achieve employment. Just as corporate America uses 
customer data to improve business practices, so do employers collect 
and track data on performance of employees, interns and apprentices. 
Schools can harness that data and use it to help students pick classes, 
decide on courses of study, and ultimately choose their career paths.

Conclusion
    The time is now to even better support change in career and 
technical education in this country and build on the successful 
foundation in place today. Existing legislation is no longer 
sufficiently comprehensive to the changing dynamics of today's 
educational marketplace. Changing the perception of CTE careers, and 
embracing technology are just a few of the ways that we can positively 
alter the face of vocational training. We need to focus on training 
American for the nearly 50% of jobs in the ``middle skills'' sector 
that will drive our economy in the years ahead.
    Chairman Rokita, Congressman Grijalva, and esteemed members of the 
committee, we at Penn Foster are looking forward to the challenges and 
opportunities ahead. Thank you for your time.

                                ENDNOTES

    \1\ http://www.huffingtonpost.com/2013/04/12/growth-online-
education-moocs--n--3041529.html
    \2\ See Addendum 2 for further information
    \3\ ``Competitive Priority--Improving Cost-Effectiveness and 
Productivity'': http://www2.ed.gov/about/overview/budget/budget13/
crosscuttingissues/pande.pdf
    \4\ See Addendum 1
    \5\ http://education.stateuniversity.com/pages/2446/State-
Departments-Education-VOCATIONAL-EDUCATION.html
    \6\ http://nces.ed.gov/fastfacts/display.asp?id=98
    \7\ http://projectonstudentdebt.org/state--by--state-data.php
    \8\ http://www.propublica.org/article/the-for-profit-higher-
education-industry-by-the-numbers
    \9\ http://www.nationalskillscoalition.org/resources/reports/tpib/
nsc--tpib--perkins.pdf
    \10\ IBISWorld report 61121
                                 ______
                                 
    Chairman Rokita. Out of respect for, in order to 
accommodate as many fellow members as I can, I am going to hold 
on my questions and go right to members' questions.
    So first will be Mr. Thompson. You are recognized for 5 
minutes.
    Mr. Thompson. Well, Chairman, thank you, Ranking Member, 
thank you for this incredibly important hearing.
    And thanks to the panel for your testimony and your 
experience today.
    As co-chair of the Congressional Career and Technical 
Education Caucus this is a subject obviously I am pretty 
passionate about. And today we are not just talking about 
greater opportunities for individuals and families, that is 
incredibly important, but the big picture is we are talking 
about America's competitiveness, having a qualified and trained 
workforce. And the types of programs that you all and the 
students that you touch, the programs you touch, and the topic 
we are talking about all serves for America's competitiveness. 
Career and technical education is not a field of dreams, it is 
a field of jobs and helping fill that skills gap and make that 
connection.
    First of all, Mr. Chairman, I just want to ask unanimous 
consent just to submit a statement from my co-chair of the 
Congressional Career and Technical Education Caucus, a 
statement from Congressman Jim Langevin.
    Chairman Rokita. Without objection.
    [The statement of Mr. Langevin follows:]

 Prepared Statement of Hon. Jim Langevin, a Representative in Congress 
                     From the State of Rhode Island

    Chairman Rokita and Ranking Member Grijalva, thank you for 
convening today's hearing.
    As co-chair of the bipartisan Career and Technical Education (CTE) 
Caucus, alongside Mr. Thompson of Pennsylvania, I have made the 
reauthorization of the Carl D. Perkins Career and Technical Education 
Act one of my top priorities. I am pleased that the committee has taken 
this important step, and I look forward to working with my colleagues 
to ensure that Perkins is up to date and fully funded.
    The Perkins Act is a major federal funding source for career and 
technical education in high schools, career and tech centers and 
community and technical colleges that support professional development, 
access to the latest technology and equipment, and integration of 
academic and technical education. Unfortunately, while demand for CTE 
has increased, funding for the Perkins Act has remained unchanged for 
almost a decade.
    One of the most insidious effects of this stagnation is the ever-
growing skills gap: businesses are unable to find employees with the 
skills to match their job openings, and workers are finding themselves 
unqualified for the best available jobs. We have some wonderful 
examples in Rhode Island of partnerships that align workforce training 
with the needs of employers, but these programs need to be nurtured and 
expanded. Closing the skills gap is one of the most important things we 
can do to get our economy moving again, and emphasizing CTE at every 
level, from elementary school to college and beyond, will help turn out 
highly-skilled and motivated workers.
    High school diplomas are no longer sufficient training for the 
modern job market. A four-year degree, two-year degree or professional 
certification is now a key precursor to building a successful and 
rewarding career. In fact, over 30 percent of the 46.8 million 
projected job openings by 2018 will require some college education. 
Meanwhile, eight of top 20 fastest-growing industries in the coming 
decades will be in the health care industry. Many of these positons 
will require a 2-year degree or less, but more than a high school 
education.
    Businesses depend on CTE to address the skills gap and shortages of 
qualified job candidates. They know that CTE students can help meet 
these demands quickly, and many postsecondary credential and degree 
programs are available to help students advance. Both short-term and 
longer-term credentials can be at least as valuable as a bachelor's 
degree.
    In reauthorizing Perkins, I would encourage the committee to build 
on past successes and to ensure that every student has the opportunity 
to take CTE courses. Students in CTE classes have better academic 
motivation, academic engagement, career skills, and overall 
employability. By connecting classroom experience with real-world 
achievement, CTE is directly correlated with higher graduation rates.
    Money invested in CTE programs is returned back to the economy many 
times over. In a recent study, the State of Connecticut found that 
every dollar invested in community college coursework returns $16.40 
over the course of a student's career. This translates to a $5 billion 
per year return to the state. Imagine what we could achieve if such 
investments were in place on a national level.
    Thank you again for convening today's hearing. Perkins has 
traditionally been a bipartisan endeavor, and I am hopeful that we can 
continue this tradition moving forward. I look forward to working with 
my colleagues on the committee to ensure that all Americans have the 
training to be career and college ready.
                                 ______
                                 
    Mr. Thompson. Thank you, sir.
    My first question is, one of the key provisions in the 
current Perkins Act is to focus on programs of study that span 
secondary and post-secondary education. Have your programs 
strengthened the secondary/post-secondary connection since the 
2006 act was passed? Anyone that would like to field that, 
please do. Dr. Harrity?
    Mr. Fischer. I could address that first. It has been a 
lever for change, particularly with getting higher ed to come 
to the table and secondary ed to come to the table. Not that 
they were reluctant partners, but we never had a common vision 
around that. And that provided the common vision. Perkins 
requires that the post-secondary elements of learning must 
begin in the secondary ed field, and it was a perfect 
opportunity, starting with tech prep, to look at articulation 
agreements and now migrate to real robust dual-enrollment 
programs. On the industry side, working with businesses, 
apprenticeship programs that can start in high school and move 
towards a full apprenticeship license. Things like that have 
really sprung up since 2006.
    Ms. Harrity. We are very fortunate in Worcester, 
Massachusetts, to actually have 11 colleges and universities in 
our city, so we partner and are working very closely with all 
the presidents and have partnerships. For instance, at our 
community college, they sent their instructor to our school 
during our day and certified our allied health students to be 
EMT certified, and they give our students free of charge seven 
college credits. They also teach Spanish 1 and 2 during the 
day, and our students earn six college credits free of charge. 
In addition, we partner with Worcester Polytechnical Institute 
where our students actually assisted their engineer students in 
building a zero-energy solar modular home which they competed 
in Datong, China, and they actually asked six of our students 
and two of our instructors to go with them to China for 3 weeks 
to rebuild the modular home and be part of their competition. 
So that has been incredible.
    Tufts University is in Grafton, which is just about 15 
minutes away. They approached us. Our construction students 
actually built the veterinary clinic that is at our school that 
has surgical labs and X-ray machines, and we service, with the 
Tufts veterinary, 250 animals to low-income families couldn't 
afford proper animal care before.
    Mr. Thompson. Coming back to the business and industry, 
because that interface is incredibly important, I believe. That 
is how we are preparing people for jobs that are there, whether 
they are emerging industries, industries that are recovering, 
industries that are just in a transitional phase in terms of 
the workforce. So in your experience what role does business 
and industry play in CTE program development and delivery and 
how can we strengthen that pivotal role?
    Mr. Bargas.
    Mr. Bargas. Yes, sir. Business and industry is a critical 
component in the development of CTE, and we spend a lot of time 
developing occupational demand, statistics and forecast, so 
that we can track our technical education programs based upon 
the demand of the workforce. And our technical college system, 
our high school system, and our Workforce Commission are 
intimately involved with this, and we are now providing the 
path forward to put meaningful CTE programs in place in the 
State to track the occupational demand.
    Mr. Thompson. I think I am probably just about out of time, 
so, Chairman, if I could ask my remaining questions, I will 
just submit those for the witnesses to be able to respond back 
in writing, that would be wonderful. I appreciate it. Thank 
you.
    Chairman Rokita. Without objection. The gentleman yields 
back.
    Mr. Grijalva is recognized for 5 minutes.
    Mr. Grijalva. Thank you, Mr. Chairman. Let me, if I may, 
submit for the record, if there is no objection, a statement 
from the ranking member, Ms. McCarthy, and a statement from the 
Association for Career and Technical Education.
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Ranking Minority Member, 
  Subcommittee on Early Childhood, Elementary, and Secondary Education

    Thank you, Mr. Chairman for calling this hearing to discuss the 
issue of Career and Technical Education (CTE) Programs. CTE programs, 
in my opinion, are critical to creating a holistic educational 
experience for secondary and postsecondary students. As many of us on 
the Committee understand, curriculums developed with a one-size-fits-
all mindset are not effective; and CTE is one example of the type of 
instructional model that caters to the ever-evolving strengths and 
interests of students. Especially when CTE programs engage in strategic 
partnerships with local and national businesses, they can be tremendous 
gateways to long and fulfilling careers for students.
    While CTE programs remain a viable and successful model for 
students to pursue traditional vocational training, there is a stigma 
associated with them in that they are considered to be solely for those 
who do not wish to pursue and attain their four year college degree. 
However, with soaring student loan debt issues, it must be noted that 
students are also taking advantage of CTE programs as a means to earn 
income to help pay for their four year college pursuits as well. To 
that end, I am proud to note that Nassau Board of Cooperative 
Educational Services (BOCES), in my Congressional District, offers 
multiple CTE programs to students, often with college agreements for 
transferable credit including to our SUNY college campuses.
    New York State received nearly $53 million in Perkins IV funding in 
Fiscal Year 2012 and those dollars seem to be well spent as the State 
achieved 90th percentile student performance achievements in math and 
language arts skills. As we discuss the Carl D. Perkins Career and 
Technical Education Act (Perkins IV) reauthorization, I am looking 
forward to hearing from our panel of expert witnesses on how we can 
improve CTE programs going forward, particularly improvements on how it 
is delivered to students and ways to facilitate program partnerships 
with businesses.
    Thank you, Mr. Chairman.
                                 ______
                                 

          Prepared Statement of the Association for Career and
                       Technical Education (ACTE)

    Chairman Rokita and Rep. Grijalva, thank you for convening today's 
hearing to launch reauthorization discussions for the Carl D. Perkins 
Career and Technical Education Act. This critical piece of federal 
legislation is the principal source of funding for career and technical 
education (CTE) program improvement and is one of the only federal 
programs that builds the capacity of secondary and postsecondary 
institutions to offer CTE programs that are academically rigorous and 
aligned to the needs of business and industry. It is essential to 
ensuring all students are both college and career ready, as well as to 
meeting the needs of the country's 21st-century economy. We greatly 
appreciate your attention on the Perkins Act and CTE more broadly.
    The Association for Career and Technical Education (ACTE) is the 
nation's largest not-for-profit education association dedicated to the 
advancement of education that prepares youth and adults for successful 
careers. ACTE has more than 25,000 members from across the country, 
including career and technical educators, administrators, researchers, 
guidance counselors and others involved in planning and conducting 
career and technical education programs at the secondary, postsecondary 
and adult levels.
    Our members have given a great deal of thought to how we might 
strengthen the federal investment in CTE through the Perkins 
reauthorization. Our positions, detailed in the attached document, 
reflect the belief that the purpose of the federal investment in CTE 
should be clearly focused on ensuring all students have access to high-
quality CTE programs in high schools and postsecondary institutions. 
Perkins should concentrate resources on building a strong system of CTE 
around the country, beginning early in a student's education with 
career awareness and broad knowledge and building pathways to more 
specific career-readiness skills through connections among secondary 
and postsecondary education and the labor market.
    We know that CTE plays a critical role in developing students, with 
CTE students outperforming their peers on numerous measures of academic 
and workforce success. The Perkins Act has long been the foundation on 
which much of this success is built, and we thank you again for your 
efforts to carefully consider its next reauthorization. We look forward 
to working with you and the full committee in a bi-partisan way as the 
process moves forward.
    The Association of Career and Technical Education (ACTE) is the 
nation's largest not-for-profit education association dedicated to the 
advancement of education that prepares youth and adults for successful 
careers. With that goal in mind, we offer the following recommendations 
to Congress as conversations begin on the reauthorization of the Carl 
D. Perkins Career and Technical Education Act (Perkins Act).
    Cutting across all of these recommendations must be a clear goal of 
building the capacity of secondary and postsecondary educational 
institutions to prepare all students for success in current and 
emerging in-demand career pathways, which lead to self-sufficiency and 
provide opportunities for advancement. At its core, career and 
technical education (CTE) is about preparing a competitive workforce to 
participate successfully in a global economy--meeting the needs of 
individuals and employers.
    In 2006, the last time the Perkins Act was reauthorized, key 
progress was made toward these goals, including through the 
introduction of Programs of Study. CTE student performance results have 
been positive, and it is critical that the next Act build on current 
law, by growing the successes and making careful changes to enhance 
progress.
Priority 1: Redefine the Federal Role in CTE
    Since its original authorization as the Vocational Education Act of 
1963, the goals of the federal investment in CTE have changed 
dramatically. While much of this change has been warranted due to 
evolving education and economic environments, over time the purpose of 
the legislation has become blurred. With more and more requirements and 
ideas added to the Perkins Act in each successive reauthorization, it 
now lacks a clear, consistent focus. As Congress reauthorizes the 
Perkins Act in the coming years, a close examination of the exact 
purpose of this legislation should occur.
            Key recommendations:
    Eliminate multitude of purposes under current law and focus on:
    <bullet> ensuring all students have access to high-quality CTE 
programs in high schools and postsecondary institutions
    <bullet> building a strong system of CTE around the country, which 
should begin early in a student's education with career awareness and 
broad knowledge and then build pathways to more specific career-
readiness skills through connections among secondary and postsecondary 
education and the labor market
    To support the notion of a strong system of CTE around the country 
and access for all, ensure that the Perkins Act remain primarily a 
formula grant designed to support all CTE programs that are willing to 
make a commitment to high levels of quality and continuous program 
improvement.
    The Basic State Grant federal-to-state and state-to-local formulas 
should be maintained as drivers of efforts to ensure all students are 
ready for careers. Technical provisions such as the hold harmless 
should be updated to ensure equity in funding.
Priority 2: Target Expenditures
    As the purpose is redefined and narrowed, so too should funding be 
more targeted to ensure the most impact on students. Funds should be 
clearly focused on ensuring programs meet high standards of quality and 
address areas in need of improvement in order to sustain and enhance 
student success. Uses of funds within the legislation should be 
clearer, more exact and fewer in number than in current law. While 
flexibility for state and local implementation is critical, funding 
must be linked to the purposes of the legislation and the intended 
outcomes.
            Key Recommendations:
    At the state level, better focus state leadership activities on key 
responsibilities, including:
    <bullet> strong professional development, at both the pre-service 
and inservice levels
    <bullet> leadership development
    <bullet> curriculum development
    <bullet> support for local development and implementation of 
Programs of Study
    <bullet> stronger connections between secondary and postsecondary 
systems, including through the development of statewide credit-transfer 
agreements and data system linkages
    At the local level, the current required and permissive uses of 
funds should be restructured to focus solely on the following areas:
    <bullet> Providing career exploration coursework and career 
development activities, career information, and career guidance and 
counseling to students both before and during CTE Program of Study 
participation.
    <bullet> Developing and implementing high-quality Programs of 
Study, which include coherent sequences of courses connecting secondary 
and postsecondary education, that are linked to labor market needs and 
lead to family-sustaining wage, careers. Funding for the implementation 
of such Programs of Study should be tied to the high-quality program 
elements described below.
Priority 3: Define Program Quality Elements
    In order to ensure that Perkins funding really is targeted to 
improve CTE programs across the entire education system, a more defined 
set of quality program elements should be included in the legislation. 
These program quality elements should focus on essential components 
that have been shown through prior research to lead to improved student 
outcomes. Programs should be required to include identified elements, 
or a plan to implement them, in order to receive Perkins funding, and 
funding should be targeted to continuous quality improvement of these 
key areas based on local needs.
            Key Recommendations:
    Each program funded by Perkins should focus resources on the 
following elements of high-quality programs, building off the 
Department of Education's Rigorous Programs of Study Framework:
    <bullet> Partnerships with business and industry, including 
required local advisory committees
    <bullet> Sustained, intensive, and focused professional development 
for teachers, administrators, counselors on both content and pedagogy 
to ensure high-quality instruction
    <bullet> Alignment with rigorous, state-identified college- and 
career-readiness standards, such as the Common Career Technical Core
    <bullet> Non-duplicative sequences of secondary and postsecondary 
courses, including related credit-transfer agreements to facilitate 
transition between learner levels
    <bullet> Teaching and learning strategies focused on the 
integration of academic and CTE content
    <bullet> Work-based learning opportunities
    <bullet> Career and technical student organizations, or other 
activities that incorporate employability skills such as leadership, 
teamwork, and communication skills
    <bullet> Appropriate technology and equipment aligned with 
workplace needs
    <bullet> Valid and reliable technical skills assessments to measure 
student achievement, which may include industry-recognized 
certifications
    <bullet> Support services to ensure equitable participation for all 
students
    <bullet> Strong career development components
Priority 4: Ensure Relevant & Consistent Data
    During reauthorization, the Perkins accountability system should be 
overhauled to ensure fewer and more meaningful measures that are more 
consistent across states and across federal programs. The system should 
rely on data that is already available or that can be easily 
incorporated into state longitudinal data systems to minimize the data 
burden on educational institutions, and improve and incentivize 
connections between secondary and postsecondary education and workforce 
data systems.
            Key Recommendations:
    Include a small set of core measures that are commonly reported 
across states.
    Ensure that data is collected on key areas of CTE student success, 
which may include but are not be limited to:
    <bullet> At the secondary level: Technical skill attainment, High 
school graduation, successful post-high school transition
    <bullet> At the postsecondary level: Credential attainment, 
Placement in employment, Postsecondary retention/transfer
    Consider the use of indicators for reporting purposes that are not 
negotiated related to performance and accountability. This reporting 
should include the disaggregation of data on various student 
demographic characteristics.
    Revise the process for negotiating performance measures to ensure 
high-performing programs aren't unfairly penalized.
Priority 5: Offer Incentives for Innovation
    In addition to the foundational Basic State Grant, the Perkins Act 
should be a driver of innovation around the country. ACTE proposes a 
new Innovation Fund, administered at the federal level and modeled 
after the recent i3 program, to identify and replicate new promising 
practices within CTE or new and emerging career areas. These funds 
should be over and above current funding levels and should focus on new 
ideas that cannot be implemented solely with Basic State Grant funds. 
Funding should be offered on a short-term basis to launch, but not 
sustain, programs, and there must be recognition that some innovative 
programs may not be successful.
    Scalability and replicability should be key considerations, with 
provisions included for the sharing of program results. As an 
alternative or additional source of innovation, the current reserve 
fund could be reworked to ensure a stronger focus on new ideas.
            Key Recommendations:
    Authorize a CTE Innovation Fund as a separate Title within Perkins.
    The innovation fund should focus on:
    <bullet> funding the identification, development, evaluation, and 
expansion of new and innovative, research- and evidence-based CTE 
practices, programs, and strategies
    <bullet> funding the development and implementation of career and 
technical programs of study in new and emerging industries at the 
regional (or local) level
    <bullet> developing rigorous evidence of the effectiveness of 
innovative strategies on career and technical education student 
outcomes and CTE program outcomes
    <bullet> supporting the rapid development, expansion, adoption, and 
implementation of tools and resources that improve the efficiency, 
effectiveness, or pace of adoption of such CTE practices, programs, and 
strategies.
    Funds should be distributed to partnerships of LEAs, area CTE 
schools, institutions of higher education, and/or postsecondary 
vocational institutions, as well as other stakeholders.
    Maintain the current reserve fund and add new flexibility for 
states to use the fund to encourage innovative practices. Maintain 
options for innovative local funding models, such as consortia and the 
``pooling'' of funds among local recipients.
Priority 6: Provide the Infrastructure to Support the System
    In addition to direct program support, there are a number of system 
elements that must be addressed by the federal CTE law in order to 
ensure high-quality CTE programs around the country. The next Perkins 
Act should continue a focus on research, evaluation and dissemination 
targeted toward improving practice. A strong state leadership role 
should be emphasized to ensure adequate coordination and technical 
assistance for local systems. Support for data and assessment systems 
to ensure appropriate program measurement approaches and data linkages, 
and provisions to address teacher education and recruitment needs are 
also areas that should be addressed.
            Key Recommendations:
    Support the continuation of a national research center for CTE 
focused directly on CTE research, dissemination and technical 
assistance, particularly in high-priority areas such as teacher 
preparation and recruitment.
    Ensure national activities funds are available to expand and scale-
up quality data systems, such as through the creation of national 
exchanges.
    Maintain funding for state leadership and administrative 
activities, including the state match and maintenance of effort 
requirements.
                                 ______
                                 
    Chairman Rokita. Without objection.
    Mr. Grijalva. And if at this point I would yield my time to 
Ms. Davis for any questions and comments she might have.
    Mrs. Davis. Thank you Mr. Chairman.
    You have all touched on so many important areas, and thank 
you so much. I think we often worry about how we can bring 
things to scale, how we can take the great expertise that comes 
with principals and with educators in our system and kind of 
expand those and make sure that they really reach all children 
with the quality that we are looking for here.
    So when we think about those partnerships, and we know we 
are obviously dealing with what I have always found to be some 
very, very passionate teachers in this field, and yet what is 
it that you believe the Perkins Act can do to drive the best in 
professional education in this area, as well as expanding those 
partnerships? How would you like to see that? Is it a 
combination of resources, is it a combination of rewards and 
grants that highlight the best practices? How do we redo this 
to make certain that it is getting at what you all have 
presented today?
    Ms. Harrity. The Perkins Grant is essential for the 
functioning of our school. For instance, in the biotechnology 
program our business and industry in central Massachusetts, it 
was essential that we are creating a pipeline for those jobs. 
So through Perkins money we actually hired a Ph.D. from UMass 
Medical School and started a biotech program with the seed 
money. Since then our district has committed two additional 
teachers. We had the first graduating class, and our students 
are all going into STEM majors which is fantastic.
    What I would recommend is that there are less requirements 
for the money in regards to having some more flexibility. A lot 
of the money is spent on professional development, which is 
essential for our especially technical teachers to stay current 
in business and industry expectations, but the ability to use 
the money in various ways would be very helpful.
    Mr. Britt. I would just add that I think that the Perkins 
Act does so many important things, but I think there is an 
opportunity to stimulate innovation in an asymmetrical way by 
utilizing some nontraditional practices like innovation grants 
and prizes that would attract not just traditional CTE leaders 
and innovators to the table, but also people from outside 
industry. I think that one of the lessons learned across all 
sectors is you have to harness the best of the talent within a 
sector, but we live in a world that is more connected, that is 
more global, and there has to be opportunities for the rest of 
the non-CTE education world to be part of that conversation. 
And I think that there are aspects of the Perkins Act that 
could be directed to innovation and that would I think create 
complementary perspectives to those that the very seasoned 
administrators and faculty bring today.
    Mr. Fischer. I would agree with everything that has been 
stated. I would add that under the current Perkins we use the 
reserve funds for an innovation grant opportunity and I would 
hate to lose that. But I would add that what we need to do also 
is to build more robust data systems and define what data 
points we are looking at and what defines success. And when we 
can do that in a more common way across the States, then we can 
look at informing instructional improvement, providing better 
professional development, and also engaging with business and 
industry to say, what is the emerging careers that we need to 
develop programs for?
    Mrs. Davis. Yes. Mr. Bargas, did you want to comment 
quickly?
    Mr. Bargas. I think they pretty well covered the topic in 
terms of our partnerships we have with public education, as 
well as our technical college system. I think that pretty well 
covers the needs.
    Mrs. Davis. Mr. Fischer, I really do believe, and we have 
to collect the data, we have to be sure that it is 
representative of what we are really trying to measure. And how 
we do that, we would certainly welcome some input about that, 
because that is critical, and we are never going to get where 
we want to go, I think, without that.
    I think you mentioned in Louisiana the Course Choice, Mr. 
Bargas, that students have. And I am just thinking how is all 
that managed? Because in order to have industries using their 
equipment or engaging students at their sites, which is really 
the optimum I think we can do, that takes resources, that takes 
transportation dollars. So how is it that we get there--I see 
my time is up--but you can----
    Chairman Rokita. The gentleman's time has expired.
    We will see if Mrs. Brooks will be recognized for 5 
minutes.
    Mrs. Brooks. Thank you, Mr. Chair.
    I actually think I know where Congresswoman Davis was going 
because I am curious with respect to the location issues. As we 
are looking at reauthorization of Perkins Act, I am curious 
what you think the most important thing the Federal Government 
can do to help ensure that all students have access to CTE type 
of programs. As a mother of a son who graduated from high 
school a couple of years ago, I wished he had done more CTE 
programs. I have also been employed with the community college 
system.
    But my point is, going back to more with respect to my son, 
large public high school, but yet CTE programs are typically 
located, they are at career ed centers far away from the 
traditional high school--unless you have a fabulous technical 
high school, which I love that concept, but not every child is 
going to choose that. And as they are exploring careers and 
ideas, if they leave and go off campus for that half a day for 
those programs they are missing the other college prep and 
advanced placement type of courses that they need to go to 
college. So I think we have a very big disconnect between our 
other academic programs and these academic programs, which 
people don't call them academic programs, but actually they 
should be. I think we have huge branding issues, as you have 
said, with CTE, but we also have these access issues for 
students who can't go and explore it because then they are 
getting off the college track.
    And I am curious what your thoughts are and if you 
understand what my frustration is about career programs being 
located far away from our high schools in separate centers and 
what should we be doing in the Perkins Act to fix that. Because 
the programs that CTE offer are fabulous, but not enough kids 
are getting the opportunity to explore them because they think 
they will then get off the college track. I would like to hear 
from all of you. And I love the technical high school programs, 
but we can't have those everywhere to the exclusion of our 
other traditional high schools.
    Ms. Harrity. In Massachusetts there are over 60 vocational 
technical schools, and in Worcester, although we are a career 
and technical high school, we have our academics, it is a very 
different model than around the country. We actually have our 
students in academics 1 week and the opposite week they are in 
their technical program, then the opposite week they go back to 
their academics. So we have created authentic learning 
experiences that are project-based learning. So what we have 
done to expand that is, because we have been so successful, the 
comprehensive high schools are now putting in Chapter 74 
programs to give the students the opportunity to be part of the 
experiences for project-based learning.
    Mrs. Brooks. Okay. Outstanding.
    Others?
    Mr. Fischer. What a question. Multiple levels of this. So 
first of all rebranding what career and tech is. It is not my 
father's voc ed. What it looks like, what it sounds like, and 
what it produces, the outcomes are big on that, the data plays 
an important role in that, dual enrollment plays an important 
role in that. Recognizing that the delivery of CTE can take 
multiple methods, anytime, anywhere learning, virtual blended 
learning. Rather than students in many of our areas hopping on 
a bus every day, we can make better use of virtual and blended 
learning, for instance.
    We can also recognize that some of that learning doesn't 
take place within the walls of a school, work-based learning 
experiences. But really saying this is the 21st century 
programs, they are rich in academics, rich in experience, and 
heavily backed by business.
    Mrs. Brooks. How would you rename it, rebrand it? I 
actually think that is part of the problem. Like you mentioned, 
calling it vocational education I think is taking us back 
decades and I think it is a huge problem for young people. And 
so whether it is a comprehensive high school, a tech, I am 
curious what you all think it ought to be renamed.
    Mr. Britt. Well, two thoughts. First of all, there are 
5,000 career academies in the United States, but DOE's 
definition of a career academy is a school within a school 
where there is both a traditional school and, whatever the 
right term is, vocational school. The future model needs to be 
the technology-enabled career and college readiness academy.
    Mrs. Brooks. Thank you.
    Mr. Britt. It should be ``and'' not ``or.'' And that is an 
important distinction. And the project-based learning models 
that leaders like Dr. Harrity and others are bringing to life 
actually makes that an ``and,'' not an ``or'' proposition, 
because it is an inquiry-based teaching model that allows you 
to solve problems and it begins to not eliminate the separate 
disciplines, but it begins to integrate the disciplines into 
real world, problem solving-based approaches.
    As far as the larger issue of branding, in the submitted 
remarks I did note an example, which is certainly a 
contemporary one, which is the ``got milk'' campaign. And there 
is a white space, if you want to put a little marketing 
parlance, there is a white space available to rebrand this 
field and own the jobs brand. And I think the opportunity is to 
bring private sector together, we have a vested interest in an 
outcome such as this, and really begin to rethink and 
reposition the brand and the marketing. Just like the ``got 
milk'' campaign worked----
    Chairman Rokita. The gentlewoman's time has expired. The 
chair recognizes himself for 5 minutes. Continue on, if you 
will, please, if you have anything else to add.
    Mr. Britt. My remarks are fine.
    Chairman Rokita. Mr. Bargas, do you have anything to add to 
Ms. Brooks question?
    Mr. Bargas. To address the issue of facilities and where 
they are located, we have taken a hard look at identifying high 
schools across the State that have either mothballed technical 
labs, whether it be in construction, whether it be in 
automotive or health care, and working with the technical 
college system and the other partners we have laid out a plan 
by which we can go out individually and try to reinvigorate 
these programs throughout the high schools.
    In addition, we have passed a huge bond issue to improve 
the locations of the technical college system, and we will be 
doing a lot of new construction. But the key is bringing it 
back into the high schools and not reducing the rigor of the 
curriculum, because that is key, and we don't think that that 
is even a topic for discussion. You have got to keep the rigor, 
but you have got to offer the technical education as well.
    Chairman Rokita. Thank you for that.
    What I am going to do now is read my question into the 
record. I am going to ask each of the witnesses to respond in 
writing, if you would. And then I am going to yield the rest of 
my time to Mr. Grijalva so he can get some questions in.
    So the question is, how can the Federal Government support 
more consistency throughout CTE programs without overburdening 
State school districts or institutions? So if you wouldn't 
mind, you have been great witnesses, your opinion is obviously 
valued, if you could respond to the committee that would be 
appreciated.
    And then with that I yield the remainder of my time, 3 
minutes, 20 seconds, to Mr. Grijalva.
    Mr. Grijalva. Thank you very much.
    And one of the questions in writing, in particular to Ms. 
Harrity and Mr. Fischer, is the impact of sequestration, what 
has it meant to your high school, and what has it meant to 
programs in Vermont? And that could be something that the 
committee can receive in writing.
    Let me just, a general question for anybody that wants to 
answer. As we look forward to the reauthorization of the 
Perkins Act what is the most important thing the Federal 
Government can do to help ensure that students have, all 
students have access to high quality CTE programs, and what are 
some of the recommendations or some of the ideas that you might 
have as we go through this process? That is open to anyone.
    Ms. Harrity. My recommendations for the Perkins, I think 
the grant in itself is very supportive of career and technical 
education, the vocational school. We are able to use the 
professional development and buy equipment. If we could be more 
flexible in the spending. It is really hard to stay in the 21st 
century with equipment and technology constantly changing. We 
would be in support of having some more flexibility in regards 
to the funding stream and where we could spend the moneys.
    Mr. Grijalva. Mr. Fischer.
    Mr. Fischer. I would add to that creating or ensuring the 
maintenance of the ability to be flexible and innovative within 
this. We can follow data once again to look at high-skill, 
high-wage, high-demand careers, but many times that data only 
reflects existing industries. We really need to look at the 
horizon as to what is emerging. And that really takes a 
concerted effort with business and industry, higher ed, and all 
sectors of the economy.
    Mr. Grijalva. Mr. Bargas, and in particular because of the 
background in your testimony, everybody agrees the importance 
of work-based training with CTE. I am curious, what are your 
thoughts about strengthening in this process the role of 
apprenticeship options for the students in the program that 
they are studying?
    Mr. Bargas. I am sorry, sir, could you repeat that?
    Mr. Grijalva. How do you strengthen the use of the 
apprenticeship program in the course of study for students?
    Mr. Bargas. Currently our program at Associated Building 
and Contractors includes a 4-year apprenticeship program. And 
we also have craft training programs. The acceleration of these 
learning experiences is brought on by the demand from industry 
and the immediate need for training skilled craft construction 
workforce.
    Mr. Grijalva. My time is up. Thank you.
    Chairman Rokita. The gentlemen yields back.
    They have called votes. I see no other members requesting 
to be recognized. With that, we are going to wrap up this 
hearing. No long speech from me other than just to say a 
sincere thank you for your leadership in the field. We 
definitely want to continue working with you. I think on a 
bipartisan basis we believe in the value of what you do, these 
programs, and how integral you are, important you are to 
education in the 21st century, to the success of this Nation in 
the 21st century.
    So again, thank you all for being here. Thank the members 
for being here. Thank the witnesses for their leadership and 
their expertise. And we look forward to seeing your answers to 
the questions posed for the record.
    With that seeing no further business before the committee, 
this hearing is adjourned.
    [Questions submitted for the record and their responses 
follow:]

                                             U.S. Congress,
                                 Washington, DC, November 15, 2013.
Mr. Alvin M. Bargas, President,
Pelican Chapter Associated Builders & Contractors, Inc., 19251 Highland 
        Road, Baton Rouge, LA 70809.
    Dear Mr. Bargas: Thank you for testifying at the September 20, 2013 
hearing on ``Preparing Today's Students for Tomorrow's Jobs: A 
Discussion on Career and Technical Education and Training Programs.'' I 
appreciate your participation.
    Enclosed are additional questions submitted by members of the 
subcommittee after the hearing. Please provide written responses no 
later than December 6, 2013 for inclusion in the final hearing record. 
Responses should be sent to Rosemary Lahasky or Dan Shorts of the 
committee staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                     Todd Rokita, Chairman,
        Subcommittee on Early Childhood, Elementary, and Secondary 
                                                         Education.

                      CHAIRMAN TODD ROKITA (R-IN)

    1. How can the federal government support more consistency 
throughout CTE programs without over-burdening states, school 
districts, and/or institutions?

                       REP. GLENN THOMPSON (R-PA)

    1. As we look toward reauthorization of the Perkins Act, what is 
the most important thing the federal government can do to help you 
ensure all students have access to high-quality CTE programs?
    2. Realizing that federal dollars are only a small portion of 
overall CTE funding around the country, how do you use federal 
resources for CTE in conjunction with state and federal resources? Why 
is the federal investment in CTE important?
    3. What mechanisms of the current Perkins Act have proven most 
helpful as you seek to continuously improve CTE program quality?
    4. One important benefit of CTE programs is helping students make 
the connections between their traditional academic coursework and real-
world application of those concepts. Have your programs been able to 
align academic coursework with CTE coursework to better help students 
learn and apply concepts?
                                 ______
                                 

       Mr. Bargas' Response to Questions Submitted for the Record

    Dear Mr. Shorts, Committee Chairman Rokita and Members of the 
Committee: Again thank you for the opportunity to testify before the 
Subcommittee on Early Childhood, Elementary, and Secondary Education on 
September 20, 2013, at the hearing entitled, ``Preparing Today's 
Students for Tomorrow's Jobs: A Discussion on Career and Technical 
Education and Training Programs.''
    In response to Chairman Rokita's November 15, 2013 request for 
responses to additional questions I respectfully submit the following:

                     QUESTIONS FROM CHAIRMAN ROKITA

    1. How can the federal government support more consistency 
throughout CTE programs without over-burdening states, school 
districts, and/or institutions?

    Funding such as Perkins funding must be allocated such that we 
invest in high wage, high demand occupations based upon consistent 
standardized methods of occupational forecasting. States must develop 
fund sharing partnerships between secondary schools districts, 
technical colleges, and private training providers to enhance 
articulation of students course work such that studies from one 
provider to the other offer more flexibility to the student and 
accountability to the funding institution.
    Funding must require training providers receiving funding such as 
Perkins to prove that the monies are being spent on high demand 
training and that training meets or exceeds industry based standards 
that lead can lead to degree or industry recognized certification 
without sacrificing rigor in the curriculum.
    Also, the federal government can assist in sharing and implementing 
best practices that occur nationwide, such as responding to social-
economic-geographic demand and making technical training partnerships a 
valued priority.

          QUESTIONS FROM REPRESENTATIVE GLENN THOMPSON (R-PA)

    1. As we look toward reauthorization of the Perkins Act, what is 
the most important thing the federal government can do to help you 
ensure all students have access to high-quality CTE Programs?

    First, the federal government needs to ensure that those receiving 
Perkins funds are spending those dollars in the most effective way. 
Once again, monies should go to support programs whose standardized 
curriculum leads to degree or industry recognized certification in high 
demand high wage occupations and do so without sacrificing rigor and 
demand. If schools understand they will only get the money meeting 
these benchmarks, they will do a better job of opening the doors for 
everyone to get quality CTE.
    One of the keys is the active involvement of industry in setting 
priorities for technical training funding. Louisiana is in year #2 of 
investing in high wage, high demand, high skill areas and investing in 
partnerships between private providers and neighboring secondary 
schools districts and colleges. In Louisiana we share half of the $21 
Million between secondary and post-secondary in order to respond to 
social-economic-geographic demand. We believe this partnering and 
concentrating of funds towards achieving industry based certifications 
in our high(est) occupational demand priorities has a greater impact 
for students and the industries that offer the greatest career 
opportunities.

    2. Realizing that federal dollars are only a small portion of 
overall CTE funding around the country, how do you use federal 
resources for CTE in conjunction with state and federal resources? Why 
is the federal investment in CTE important?

    In Louisiana federal funding is leveraged, blended, and invested in 
conjunction with existing state and industry resources. This holistic 
approach allows us to best concentrate resources in the names of 
partnerships with industry. Federal CTE funds and the procedures by 
which we employ them ensure that funds are invested directly (85%) and 
indirectly (supporting and administrative 15%) into the classroom . 
Federal investment in CTE it is an investment that can result in the 
greatest returns for our country and our states. Students that 
participate in a quality CTE program graduate at higher rate and they 
have a head start on a career and training that offer our students the 
opportunity to achieve their American Dream.

    3. What mechanisms of the current Perkins Act have proven most 
helpful as you seek to continuously improve CTE program quality?

    The mechanisms that are most helpful are:
    <bullet> Encouragements of built-in partnerships
    <bullet> Mandated collection & reporting of data which allows for 
analysis and appraisal of performance
    <bullet> Network of states that sharing best practice
    <bullet> Mandated investment of Special Populations and Non-
Traditional Funding

    4. One important benefit of CTE programs is helping students make 
the connections between their traditional academic coursework and real-
world application of those concepts. Have your programs been able to 
align academic coursework with CTE coursework to better help students 
learn and apply concepts?

    Yes, Louisiana's public education providers of CTE are working 
harder than ever to expand our partnerships with business and industry 
groups such as Associated Builders and Contractors, Inc. and state 
workforce and economic agencies to align our career pathways. For 
example, selection of high wage, high demand, and high skill areas for 
partnership are predicated on career pathways. We continue to refine 
these processes so that colleges/secondary technical education 
providers can better align with industry standards. This is key to 
effectively matching our training requirement to achieve industry 
expectations which ultimately leads to employment in high wage careers.
    This important concept should be an everyday occurrence in the 
academic world. Every course a student takes should emphasize real 
world application. The programs offered through our high school dual 
enrollment programs will have core academic classes that are directly 
related to the career path the student chooses.
    I hope the Committee finds the above responses helpful in their 
work on improving our country's career and technical education 
opportunities. I would like to acknowledge Robert Clouatre, Associated 
Builders and Contractor, Inc. Director of Education and Jimmy Sawtelle, 
Louisiana Community and Technical College System Sr. Vice President for 
Workforce Solutions for their contributions to my testimony and the 
above responses for the record.
    Please do not hesitate to call upon us if we can be of further 
assistance.
                                 ______
                                 
                                             U.S. Congress,
                                 Washington, DC, November 15, 2013.
Mr. Frank Britt, Chief Executive Officer,
Penn Foster Inc., 925 Oak Street, Scranton, PA 18515.
    Dear Mr. Britt: Thank you for testifying at the September 20, 2013 
hearing on ``Preparing Today's Students for Tomorrow's Jobs: A 
Discussion on Career and Technical Education and Training Programs.'' I 
appreciate your participation.
    Enclosed are additional questions submitted by members of the 
subcommittee after the hearing. Please provide written responses no 
later than December 6, 2013 for inclusion in the final hearing record. 
Responses should be sent to Rosemary Lahasky or Dan Shorts of the 
committee staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                     Todd Rokita, Chairman,
        Subcommittee on Early Childhood, Elementary, and Secondary 
                                                         Education.

                      CHAIRMAN TODD ROKITA (R-IN)

    1. How can the federal government support more consistency 
throughout CTE programs without over-burdening states, school 
districts, and/or institutions?

                       REP. GLENN THOMPSON (R-PA)

    1. As we look toward reauthorization of the Perkins Act, what is 
the most important thing the federal government can do to help you 
ensure all students have access to high-quality CTE programs?
    2. Realizing that federal dollars are only a small portion of 
overall CTE funding around the country, how do you use federal 
resources for CTE in conjunction with state and federal resources? Why 
is the federal investment in CTE important?
    3. What mechanisms of the current Perkins Act have proven most 
helpful as you seek to continuously improve CTE program quality?
    4. One important benefit of CTE programs is helping students make 
the connections between their traditional academic coursework and real-
world application of those concepts. Have your programs been able to 
align academic coursework with CTE coursework to better help students 
learn and apply concepts?
                                 ______
                                 

       Mr. Britt's Response to Questions Submitted for the Record


                           CONGRESSMAN ROKITA

    1. How can the federal government support more consistency 
throughout CTE programs without over-burdening states, school 
districts, and/or institutions?

    Consistency is important for any successful government program, and 
we believe a strong foundation for consistency already exists within 
the US DOE 10 Component framework emphasizing strategies that improve 
alignment between secondary and postsecondary systems, such as 
statewide articulation agreements, transcripted postsecondary credit, 
and stackable credentials. The Framework is viewed by states, school 
districts and institutions as a guideline that helps create, sustain, 
and grow Career and Technical Education (CTE) programs. Continuing to 
review, modify, and update the framework will result in increased 
consistency throughout CTE programs and improved alignment with 
industry standards, credentials and overall job market needs.
    There are three areas where consistency can be improved:
    1. High-quality CTE programs--Federal CTE legislation should focus 
on promoting excellence in CTE. To that end, the National Research 
Center for Career and Technical Education (NASDCTEc) believes that more 
specificity is needed to define elements that are necessary to ensuring 
high-quality programs. Research by the NASDCTEc underscores our 
recommendation that federal funding should be delivered through 
rigorous programs of study, as defined by the Office of Vocational and 
Adult Education's 10 component framework. The law should emphasize 
strategies that improve alignment between secondary and postsecondary 
systems, such as statewide articulation agreements, transcripted 
postsecondary credits, and stackable credentials. High-quality CTE 
programs should also expose students to employment and leadership 
opportunities, for instance, through work-based learning and 
participation in Career Technical Student Organizations (CTSOs). 
Federal funds should be distributed only to state-approved, rigorous 
CTE programs of study.
    2. Promote Data Uniformity--Despite significant spending on CTE 
across the High School, Technical College and Career School sectors, 
the quality of unit-level and aggregate data on spending and student 
achievement is often elusive, contradictory, or out-of-date. For 
example, the basic definition of who and what is a K-12 CTE student 
varies across states and districts. Is a CTE student a ``CTE 
concentrator'' who takes 4-6 CTE courses in one area, or is it any 
student who takes any CTE course? The definition of what constitutes a 
CTE course varies across states, districts and even schools. A world-
class educational system cannot be modernized without better data and 
consistency for the sake of benchmarking and performance improvement 
management on behalf of students and investors. There are substantial 
private sector innovations in data science that can allow for 
harmonization without forcing one-size-fits-all. For example, Linked In 
recently launched University Pages, and around 1,500 schools have 
already adopted them, helping build visibility to their student bases. 
The core challenge of that project was successful data harmonization.
    Similarly, inconsistencies in how and who provides tracking and 
reporting costs impact how a given state's delivery system is set up: 
e.g., New York has a regional service center model (BOCES) that 
delivers some (but not all) CTE programs for its member school 
districts. Other states deliver CTE programs in comprehensive high 
schools. Those variables impact administrative, transportation, 
instructional, and capital costs.
    The government must work to provide a framework for a CTE 
enterprise that can work as a blueprint and also work to achieve 
greater data harmonization, data transparency, and fact based results. 
The lack of data undermines students, employers and governments' 
ability to maximize the return on CTE investments.
    3. Use of Data Dashboards--Use reliable, valid, and educator-
friendly ``data dashboards'' such as the Lexile Framework for Reading 
and the Quantile Framework for Mathematics to monitor and report on an 
ongoing basis student progress toward proficiency and preparation for 
the workforce. The data dashboards use statistically-valid instruments.

                          CONGRESSMAN THOMPSON

    1. As we look toward reauthorization of the Perkins Act, what is 
the most important thing the federal government can do to help you 
ensure all students have access to high-quality CTE programs?

    The three most important things that the federal government can do 
are (1) recognize innovative, technology based solutions from both the 
for-profit and non-profit community to resolve equity issues in both 
urban and rural environments; (2) reward and provide funding based on--
not just CTE enrollments--but on CTE program completion. Some states 
(e.g., New York) provide a CTE ``endorsement'' for successful 
completion of a requisite number of courses in a given career area. The 
key is a fair reward formula that acknowledges differences, and is not 
a one-size-fits-all approach; (3) earmark funds for professional 
development of CTE educators. When educators are able to stay current 
in their industry, the students benefit.
    The federal government should limit the amount of regulatory 
language in rfps that in some cases shut out the most innovative 
solutions that come from industry (outside of not-for-profit), and 
increase regulatory guidelines that favor lowest price submissions in 
response to rfps. Race to the Top competitive grants are a great 
example of rfps including language that basically translated the award 
going to the lowest bidder (e.g. NY curriculum rfp, TN evaluation 
system rfp, etc.)
    The federal government should look at the NASDCTEc recommendation 
for Innovation funding. The next iteration of federal CTE legislation 
should allocate new formula funding, above and beyond the basic state 
grant, to states that incentivize innovative practices and solutions at 
the state and local levels. Successful innovations should be scaled up 
using the basic state grant funds.
    In short the federal government can be a catalyst for spurning 
innovation. The assumption that all CTE must be delivered in a ground 
based school setting is inconsistent with 21st century learning. The 
reality is that there are many places and ways that students can attain 
practical experience and career training and those alternatives should 
be encouraged, whether it takes place online, in actual workplaces or 
in a traditional school setting.

    2. Realizing that federal dollars are only a small portion of the 
overall CTE funding around the country, how do you use federal 
resources for CTE in conjunction with state and federal resources. Why 
is the federal investment in CTE important?

    Insist that Perkins funds be used by states in the most effective 
and efficient ways practical. For example, Effectiveness and Efficiency 
Framework: A Guide to Focusing Resources to Improve Student Performance 
outlines a framework that can be used to:
    1. guide schools and districts as to which tools, strategies, 
professional development, procedures, organization of instruction, etc. 
they should use
    2. serve as a vehicle to compile a national repository of best 
practices for efficiency and effectiveness
    3. guide policy formulation at the district and state levels, based 
upon #2 above
    In the 21st century there is no longer one path for every 
individual to pursue in education. Alternative pathways, as outlined in 
the Pathways to Prosperity Report published by the Harvard Graduate 
School of Education, need to be embraced and encouraged by the federal 
government. Continued support of the Perkins Act, coupled with new 
innovations, is a significant market signal to educators and industry 
alike that CTE remains important.
    It is important to note here that districts still heavily rely on 
CTE federal funding in order to support their programs given the 
constant challenges tied to local and state budgets--there is local and 
state funding, but it is not consistent and not appropriated on an 
annual basis. A key issue in the nation's largest districts is 
increasing high school graduation rates and providing students with 
career and/or college ready skills. As school districts carefully 
examine how to best utilize their local, state and federal funding in 
order to address both critical issues, it is important to understand 
the importance of CTE federal funding because it can only be used for 
CTE initiatives. CTE federal funding provides a critical foundation for 
districts to prioritize effective CTE programs that would otherwise not 
exist if it weren't for Perkins funding.

    3. What mechanisms of the current Perkins Act have proven most 
helpful as you seek to continuously improve CTE program quality?

    Programs of study are the best way to continuously improve. They 
incorporate secondary and postsecondary education elements into a 
coordinated, non-duplicative progression of courses leading to an 
industry-recognized credential, certificate, or degree. This allows for 
career schools like Penn Foster to continuously improve our programs of 
study through reviewing our framework and making necessary adjustments 
based on employer needs that align to better outcomes for our students.

    4. One important benefit of CTE programs is helping students make 
the connections between their traditional academic coursework and real-
work application of those concepts. Have your programs been able to 
align academic coursework with CTE coursework to better help students 
learn and apply concepts?

    While not funded under the Perkins Act, Penn Foster's collaboration 
with Job Corps is just one example of a commitment to education 
innovation in career technical training with students who have 
struggled in the traditional system. Both Penn Foster and Job Corps are 
focused on bringing professional and educational opportunities to at-
risk students and those who have not had success in the traditional 
system. Penn Foster operates in 60+ of Job Corps' 125 centers around 
the nation, implementing a self-paced high school model and devising 
various innovative hybrid courses that combine online instruction with 
hands-on training. Since 2006, the partnership has worked by combining 
general high school requirements such as math or science with electives 
in a career track of the student's choice. Run simultaneously, Penn 
Foster provides the materials to help the students receive their 
diploma, while Job Corps provides them with the practical career 
training and support. An instructor is present at all times and helps 
the student decide on and prepare for their next exciting step, whether 
it's a job or college. When they complete the program students leave 
with more than just a diploma, they have a skill set that can help lead 
to a better life.
    Given the dynamic nature of the marketplace, it is more important 
than ever for educators to provide employment-focused education. As 
students look to train-up and acquire practical and marketable skills, 
educators must respond in kind by adjusting their methods to be more 
learner-focused. Ideally, the future of education will blend online and 
traditional learning experiences and be flexible, so that the material 
is available to the student on his/her own time and teaching and 
engagement is saved for the classroom.
    Penn Foster's partnerships with businesses provide students with 
invaluable opportunities to gain practical experience in addition to 
their education pursuits. For example, in the Vet Tech market we help 
place students with ``hands-on'' externships with two of the largest 
veterinary hospitals in the US: Banfield and VCA. Similarly, we have 
developed a program that places our Pharmacy Technician students into 
externships with CVS. These partnerships and others expose our students 
to the very best that private industry can offer in their fields, while 
developing the skills they need to find gainful employment soon after 
completing their matriculation.
                                 ______
                                 
                                             U.S. Congress,
                                 Washington, DC, November 15, 2013.
Mr. John Fischer, Deputy Commissioner,
Transformation & Innovation, Vermont Agency of Education, 120 State 
        Street, Montpelier, VT 05620.
    Dear Mr. Fischer: Thank you for testifying at the September 20, 
2013 hearing on ``Preparing Today's Students for Tomorrow's Jobs: A 
Discussion on Career and Technical Education and Training Programs.'' I 
appreciate your participation.
    Enclosed are additional questions submitted by members of the 
subcommittee after the hearing. Please provide written responses no 
later than December 6, 2013 for inclusion in the final hearing record. 
Responses should be sent to Rosemary Lahasky or Dan Shorts of the 
committee staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                     Todd Rokita, Chairman,
        Subcommittee on Early Childhood, Elementary, and Secondary 
                                                         Education.
                      CHAIRMAN TODD ROKITA (R-IN)

    1. How can the federal government support more consistency 
throughout CTE programs without over-burdening states, school 
districts, and/or institutions?

                       REP. GLENN THOMPSON (R-PA)

    1. As we look toward reauthorization of the Perkins Act, what is 
the most important thing the federal government can do to help you 
ensure all students have access to high-quality CTE programs?
    2. Realizing that federal dollars are only a small portion of 
overall CTE funding around the country, how do you use federal 
resources for CTE in conjunction with state and federal resources? Why 
is the federal investment in CTE important?
    3. What mechanisms of the current Perkins Act have proven most 
helpful as you seek to continuously improve CTE program quality?
    4. One important benefit of CTE programs is helping students make 
the connections between their traditional academic coursework and real-
world application of those concepts. Have your programs been able to 
align academic coursework with CTE coursework to better help students 
learn and apply concepts?

                       REP. RAUL GRIJALVA (D-AZ)

    1. Mr. Fischer, what has been the impact of sequestration on CTE 
programs in Vermont?
                                 ______
                                 

      Mr. Fischer's Response to Questions Submitted for the Record

                            CHAIRMAN ROKITA

    1. How can the federal government support more consistency 
throughout CTE programs without over-burdening states, school 
districts, and/or institutions?

    A recent Organization for Economic Co-operation (OECD) report found 
that while the United States has some of the best Career Technical 
Education (CTE) programs in the world, the quality of programs 
throughout the country is often sporadic. The decentralized nature of 
the CTE system in the U.S. is at once its greatest strength as well as 
one of the biggest challenges. Current law supports state and local 
flexibility for how to direct the use of federal funds. This built-in 
flexibility helps to promote some of the most dynamic and innovative 
CTE programs in the country and address State specific sector demands. 
I believe this flexibility for states should be preserved. There is 
however a few things the federal government can do to support more 
consistent quality of CTE programs without overburdening recipients of 
federal CTE funds.
    The National Association of State Directors of Career Technical 
Education Consortium (NASDCTEc) has recently developed the Common 
Career Technical Core (CCTC), a set of common benchmark standards for 
CTE. Based on knowledge and skills statements for each Career 
Cluster(r), these state developed and voluntary benchmark standards 
incorporate 12 Career Ready Practices, which address the skills and 
knowledge that are essential to becoming career ready. The CCTC would 
serve as an excellent method for introducing common expectations into 
CTE curriculum and programs. This would allow for better comparisons of 
student outcomes between programs, increase student mobility through 
improved portability and recognition of credentials, and enhance the 
sharing of best practices, particularly as students enter a globally 
competitive economy.
    Second, I believe that working toward common measurement and 
appropriate accountability provisions is necessary. Allowing 
flexibility in how to achieve the performance goals, as noted above, is 
appropriate but requiring common reporting would move the system 
forward.
    Finally, the expansion of the reserve fund (currently limited to 
10%) would allow states the ability to better promote innovation, 
scaling up of successful models and rewarding high performance. These 
flexible resources could further be targeted to help rural or hard-
working but low-performing districts and colleges that may receive a 
very minimal amount of funding through the formula.

                              MR. THOMPSON

    1. What is the most important thing the federal government can do 
to help ensure all students have access to high-quality CTE programs?

    Ensuring equitable access to high-quality CTE programs is, and 
should continue to be, a priority for a reauthorized version of 
Perkins. To that end, formula grants provide a baseline of funding to 
most communities across the country. However, over the last decade the 
federal investment in CTE has declined precipitously. Increasing the 
federal investment in Perkins would expand the number of programs and 
students that could be served. In an era of accountability, we know the 
Congress is faced with difficult decisions on where to direct limited 
resources. Perkins is a proven, successful program. Perkins 
demonstrates a positive return on investment, helping more students 
graduate high school (when compared to the national average), 
transitioning more students to postsecondary education and providing 
students with the skills, knowledge and experience to be well-prepared 
for today's global economy. Regrettably, the reduction in funding has 
resulted in programs shutting down across the country at a time when 
our students, employers and economy need more CTE not less.

    2. Realizing that federal dollars account for only a small portion 
of overall CTE funding around the country, how do you use federal 
resources for CTE in conjunction with state and federal resources? Why 
is federal investment important?

    The investment the federal government makes in Perkins is 
ABSOLUTELY essential to the continuation of CTE programs across the 
country. While the funds have regrettably been cut and their real value 
diminished over time, the need for these funds couldn't be greater. In 
some states, the federal Perkins funds are the largest investment in 
CTE programs. In other states, Perkins is a smaller investment than 
state funds for CTE. Yet, this does not diminish the role and leveraged 
purpose of Perkins. Perkins funds incentivize innovation, improvement 
and focus on needy student populations while State funds many times 
maintain existing programs. If these funds were to go away, programs 
and supports and valuable innovation would go away.
    Second, federal funds have an express purpose of providing access 
to CTE programs across an entire state. State and local funds 
supporting CTE vary significantly in amount but also in how the funds 
are distributed. In some states, it is the responsibility of the local 
community to raise funds for CTE programs. This means that the wealthy 
districts have CTE programs but poor or rural communities go without. 
The federal funds are essential to ensuring equitable access to high-
quality CTE. Right now we are not meeting this mission fully because 
the federal funds do not go as far as they used to.
    Federal investments via the Perkins Act have acted as a catalyst 
for program improvement and innovation even while those investments 
account for a smaller portion of overall CTE program funding than that 
provided by states. Although Perkins funds account for less than 10 
percent of all investments in CTE nationally, they remain a driving 
force behind program innovation and improvement. A recent study by 
NASDCTEc found that Perkins is the major driver for evaluation and 
monitoring of the quality of secondary CTE programs and as such, has an 
impact far exceeding the actual dollars sent to states and locals. 
Further, the federal funds at the postsecondary level are essentially 
the only funds the community and technical colleges receive that can be 
dedicated to program development. Finally, Perkins is the only federal 
investment that has at its mission connecting and funding secondary and 
postsecondary programs.
    Finally, through the Maintenance of Effort (MOE) provisions and the 
state match requirements in current legislation, states have been able 
to use federal funds to leverage additional resources outside of the 
Perkins Act. This would not be possible without continued federal 
investment in CTE and is a compelling argument for continued federal 
investment in CTE.

    3. What mechanisms of the current Perkins Act have proven most 
helpful as you seek to continuously improve CTE program quality?

    Currently, the Perkins Act requires states to have at least one 
Program of Study (POS) in order to receive funding. Programs of Study 
are an effective tool for ensuring federal funds supports the 
development of rigorous CTE programs that lead to positive student 
outcomes. This is accomplished by linking secondary and postsecondary 
learner levels in a non-duplicative sequence of courses, which 
ultimately lead to a postsecondary credential or certificate.
    Continuing to develop and improve upon the POS model--primarily 
through the adoption of the U.S. Department of Educations' Office of 
Vocational and Adult Education's ten component framework for rigorous 
Programs of Study--will help improve CTE program quality on the whole. 
We would recommend that all Perkins funds be required to be delivered 
through comprehensive Programs of Study aligned to regional, state or 
local economic priorities.
    Another useful tool is the reserve fund. By allowing states to 
focus the reserve fund on priority populations and needs, states have 
been able to make great advances in preparing students for the 
workplace and postsecondary education. Increased flexibility in the use 
of the reserve fund, as well as a greater portion of the funds being 
allowed to be distributed via the reserve fund would go far to give 
states the authority to better meet it workforce, economic and student 
achievement goals.

    4. CTE programs help students make connections between their 
academic coursework and the real-world application of those concepts. 
Have your programs been able to align academic coursework to better 
help students learn and apply concepts?

    Vermont has made great strides in connecting academic and technical 
standards and instruction but more can be done. First, we must see the 
support for this connection between academics and real-world 
application not only in Perkins but also in the Elementary and 
Secondary Education Act. Further, supporting competency-based education 
would allow for demonstration of competency and achievement through 
real-world projects and activities; and we know that in the real-world 
you don't separate academic work from technical work--it is seamless.

                              MR. GRIJALVA

    1. What has been the impact of sequestration on CTE programs in 
Vermont?

    The Carl D. Perkins Act of 2006 includes a hold harmless provision 
that does not allow a state to receive less than the amount they 
received for their basic state grant allocation in fiscal year 1998. 
Moreover, current Perkins law incorporates a minimum allocation 
requirement, commonly known as the ``small state minimum'', that 
ensures no state receives less than 0.5 percent of the overall 
allocation. Both of these provisions found in Title I, Section 111, 
have had serious complications with the across the board spending cuts, 
known as sequestration, that were mandated by the Budget Control Act of 
2011.
    Total appropriations for Title I Basic State Grants under Perkins 
were reduced by 5.2 percent beginning in July of this year. This 
amounted in an overall reduction of $59 million in cuts to the national 
basic state grant allocation. As a consequence, payments to states were 
proportionately reduced between all state recipients. Perversely, 
states that have experienced the most growth since 1998, and thus serve 
a larger student population, have had their state allocations reduced 
the most drastically because of the interplay between these two 
provisions. While VT was saved from Perkins reductions using this 
``small State'' clause, other States have seen damaging reductions.
    Otherwise, sequestration has had an impact in Vermont on direct 
services and professional learning opportunities which unfortunately 
have targeted our most needy students, particularly due to the 
reductions in IDEA and Title I. Our reports indicate that schools are 
attempting to manage the financial impact but the burden of essential 
services has shifted to state resources, at a time when we were least 
prepared for this added burden.
    Some anecdotal information:
    1. The total monetary loss to State Title I funds was $1,218,084 or 
a 3% decrease.
    2. The cuts at the LEA allocation level in Title I ranged from 1% 
to 15%.
    3. School Improvement funds were cut by $100,000, approximately 10% 
reduction.
    4. For Title IIA funds, the State allocation was cut by 5.6%. The 
current total State allocation is $10,199,403 to support statewide 
professional learning, compared to almost $14 million in FY'09.
    Thank you for the opportunity to share these additional thoughts. I 
am happy to provide additional information or clarification to these 
questions or other issues that the Committee is considering as it moves 
forward with the reauthorization of Perkins.
                                 ______
                                 
                                             U.S. Congress,
                                 Washington, DC, November 15, 2013.
Dr. Sheila Harrity, Principal, Worcester Technical High School, 1 
    Skyline Drive, Worcester, MA 01605.
    Dear Dr. Harrity: Thank you for testifying at the September 20, 
2013 hearing on ``Preparing Today's Students for Tomorrow's Jobs: A 
Discussion on Career and Technical Education and Training Programs.'' I 
appreciate your participation.
    Enclosed are additional questions submitted by members of the 
subcommittee after the hearing. Please provide written responses no 
later than December 6, 2013 for inclusion in the final hearing record. 
Responses should be sent to Rosemary Lahasky or Dan Shorts of the 
committee staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                     Todd Rokita, Chairman,
        Subcommittee on Early Childhood, Elementary, and Secondary 
                                                         Education.

                      CHAIRMAN TODD ROKITA (R-IN)

    1. How can the federal government support more consistency 
throughout CTE programs without over-burdening states, school 
districts, and/or institutions?

                       REP. GLENN THOMPSON (R-PA)

    1. As we look toward reauthorization of the Perkins Act, what is 
the most important thing the federal government can do to help you 
ensure all students have access to high-quality CTE programs?
    2. Realizing that federal dollars are only a small portion of 
overall CTE funding around the country, how do you use federal 
resources for CTE in conjunction with state and federal resources? Why 
is the federal investment in CTE important?
    3. What mechanisms of the current Perkins Act have proven most 
helpful as you seek to continuously improve CTE program quality?
    4. One important benefit of CTE programs is helping students make 
the connections between their traditional academic coursework and real-
world application of those concepts. Have your programs been able to 
align academic coursework with CTE coursework to better help students 
learn and apply concepts?

                       REP. RAUL GRIJALVA (D-AZ)

    1. Dr. Harrity, what has been the impact of sequestration on your 
high school?
                                 ______
                                 

      Dr. Harrity's Response to Questions Submitted for the Record

                      CHAIRMAN TODD ROKITA (R-IN)

    1. How can the federal government support more consistency 
throughout CTE programs without over-burdening states, school 
districts, and/or institutions?

    CTE is defined differently in most regions. In certain states CTE 
is integrated with the academics in other states the students leave the 
academic school and travel to a CTE center. An animal science program 
in an urban school district takes on a different set of skill standards 
than an animal science program in a rural school district. To define a 
one size fits all standard will not work. Geography, labor work force 
demands, proximity to post-secondary institutions/business and industry 
all dictate how a CTE program can prepare students successfully. In my 
opinion, what worked best for WTHS is increasing academic Rigor for all 
students (access to Advanced Placement and college courses), increasing 
Relevancy of why a student is studying/learning/doing a specific task 
(why a carpenter needs to understand the equation for slope or a 
cosmetology student needs to know chemistry), improving the 
Relationships with business, industry, labor unions, and post-secondary 
institutions so that students have access to much needed internships/
co-operative education, hours, and or dual enrollment experiences, and 
schools have access to those in the fields to help shape and drive 
current curricula, and also instilling in each student the 
Responsibility that he/she has to the community that afforded them the 
opportunity to learn a set of competencies that will lead them to a 
successful placement (military, post-secondary education, and/or 
career). I believe that the federal government should require targeted 
outcomes to ensure CTE consistency through developing common goals 
(i.e. % of successful placements, academic success, etc.) and through 
encouraging Rigor (AP and college level courses)/Relevancy (academic 
and CTE integration)/Relationships (advisory panels)/Responsibility 
(community service). I don't believe the federal government should 
design a `one size fits all' solution.

                       REP. GLENN THOMPSON (R-PA)

    1. As we look toward reauthorization of the Perkins Act, what is 
the most important thing the federal government can do to help you 
ensure all students have access to high-quality CTE programs?

    Simple--funding. The federal government should continue to fund the 
Perkins Act and ensure that there is access to the much needed funding 
to keep programs current in terms of technology and curricula. It takes 
a lot of money to keep the programs running in a capacity that will 
prepare a student with the technical competencies to compete in the job 
market. Many of these competencies require access to the latest 
technologies whether it is a CNC machine, 3D printer/scanner, tablet, 
or a spectrometer. Funding should be available to supplement the state 
funding. Also, many of the Massachusetts CTE programs have a waiting 
list. This would indicate that more programs or space is needed. 
Funding is required to expand existing schools or build new ones to 
accommodate this demand.

    2. Realizing that federal dollars are only a small portion of 
overall CTE funding around the country, how do you use federal 
resources for CTE in conjunction with state and federal resources? Why 
is the federal investment in CTE important?

    Federal funding is used to supplement the local budgets. These 
dollars provide access to much needed instructional/technical supplies. 
It also is used to provide professional development to staff that keeps 
them current in their field. The monies are also used to help 
struggling students with support and access to after school programs 
and or career/college planning. Federal investment in CTE is not only 
important but it is critical to support the infrastructure of the 
United States. These dollars are helping students prepare to be 
successful in their chosen careers and or college. By ensuring students 
have access to CTE programs and are learning relevant skills, the 
workforce will have access to skilled labor subsequently keeping 
business industry from going outside the country to design/produce/sell 
its wares.

    3. What mechanisms of the current Perkins Act have proven most 
helpful as you seek to continuously improve CTE program quality?

    I believe the most useful mechanism for Perkins is the ability to 
use the funding to start new CTE programs that meet the local and state 
needs for business and industry. A very successful example at our 
school was the ability to start a Biotechnology program with Perkins 
money. The money was used to hire a teacher to design a program that 
aligned curriculum to biotechnology business/industry needs. The 
program, in five short years, has expanded to three staff and sixty 
students. All of the biotechnology students in the first graduating 
class had 100% successful placement in the biotechnology field. In 
addition, UMASS Medical School in Worcester, MA just gave us an 
$825,000 donation to fund the expansion of this successful program. 
This would have not been possible without the seed money from Perkins.

    4. One important benefit of CTE programs is helping students make 
connections between their traditional academic coursework and real-
world application of these concepts. Have your programs been able to 
align academic coursework with CTE coursework to better help students 
learn and apply concepts?

    Yes, absolutely our students have made this connection. We have 
worked diligently to provide time and resources to both the technical 
and academic instructors to work collaboratively on integration 
projects that bring the two together. Our annual science fair is 
composed of projects relevant to a students' technical area of study--
one example is an early childhood education student worked with a 
design and drafting student and a machine tool technology student to 
design an educational toy for pre-school aged children. The design 
received a patent. Additionally each summer, instructors (academic and 
technical) are encouraged to participate in an externship with a local 
entity (business/industry) to learn what it takes to be successful. 
They then bring this newfound knowledge back to the classroom in the 
form of updated/relevant curricula.

                       REP. RAUL GRIJALVA (D-AZ)

    1. Dr. Harrity, what has been the impact of sequestration on your 
high school?

    At WTHS, we have not felt the impact of sequestration. However, we 
know that it has impacted our city as a whole and we anticipate that 
the ripples will eventually reach us.
                                 ______
                                 
    [Additional submissions for the record from Chairman Rokita 
follow:]

                                                September 20, 2013.
Hon. Todd Rokita, Chairman; Hon. Carolyn McCarthy, Ranking Member,
Subcommittee on Early Childhood, Elementary and Secondary Education, 
        U.S. House of Representatives, Washington, DC 20515.
    Dear Chairman Rokita and Ranking Member McCarthy: Thank you for 
holding today's subcommittee hearing on ``Preparing Today's Students 
for Tomorrow's Jobs: A Discussion on Career and Technical Education and 
Training Programs.'' The Independent Electrical Contractors (IEC) 
appreciates this subcommittee's attention to the need to improve access 
to and emphasis on career and technical education and training in 
primary and secondary schools. We respectfully submit the following 
comments for the hearing record, which represent our thoughts on this 
matter.

I. The electrical contracting industry needs to fill good paying jobs
    IEC is a national trade association representing more than 3,000 
merit shop electrical and systems contracting companies employing over 
100,000 individuals across 56 chapters. Electrical workers are well 
paid, with the median income of electricians being over $48,000 per 
year.
    The industry is recovering and the demand for electricians is up. 
However, our current workforce is reaching retirement age and many 
electricians left the industry during the recent recession. We are 
having difficulty finding the qualified individuals we need to fill 
those positions. Projections by the Bureau of Labor Statistics (BLS) 
indicate that our industry's growing shortage may rise to a deficit of 
over 150,000 workers by the year 2020.

II. IEC is a longstanding leader in educating the next generation of 
        qualified, successful electrical workers. But, entry level 
        workers must be properly prepared
    The electrical industry is highly technical. Contractor personnel 
have to be able to conduct complex circuit calculations, read and 
interpret complex technical specifications and building codes, evaluate 
field conditions, and command knowledge of basic physics, mechanics, 
and environmental issues to design and install workable electrical 
systems. Electricians must have advanced education, which a four year 
college degree does not provide. They must have a strong K-12 education 
and obtain specialized training. Such training can be provided through 
an unstructured program of study through a community college or trade 
school, or through a rigorous U.S. Department of Labor Registered 
Apprenticeship program such as is conducted by IEC.
    In order to successfully enter an electrical education program--
either through a registered apprenticeship or through community college 
or trade schools--students must possess several important qualities.
    Entry-level students must have a strong grounding in STEM subjects 
including basic and applied mathematics through at least Algebra I and 
basic physical sciences, as well as proficiency in reading and 
analytics. Further, they must have received basic life skills training 
and basic employability skills training.
    Successful candidates must be able to conduct some physical tasks, 
such as climbing ladders and lifting at least 50 pounds on a regular 
basis. They must be mechanically inclined and able to work with their 
hands. And, most importantly, they must be interested in pursuing a 
career in the electrical industry and be willing to take direction and 
learn.
    IEC's electrical education program is equipped to provide students 
with the advanced education necessary.

III. High schools must increase their emphasis on building basic STEM 
        and employability skills to prepare students for both college 
        and career entry.
    Unfortunately, our education system is myopically focused on 
preparing students for a four-year college degree. As a result, far too 
many leave high school without basic STEM education, life skills, and 
employability training. We are concerned that our system is so focused 
on churning out college graduates that high schools have excluded 
teaching the basics necessary for life and for any occupation. On a 
national basis, we see young people coming in our educational program 
requiring significant remediation to bolster their basic math skills 
and reading. At the same time, high schools have cut funding to labs, 
workshops, and applied learning programs. Students are leaving school 
with limited mechanical ability and technical skills necessary to 
pursue many successful careers.
    IEC firmly believes that advanced education takes a variety of 
forms--and is not limited to a college degree. In fact, IEC is a 
believer in lifelong learning. Nationally, IEC's registered electrical 
apprenticeship education program has been evaluated by American Council 
on Education (ACE) and is recognized for 37 semester hours towards 
college credit. At the local level, a number of IEC chapter educational 
programs have individually negotiated articulation agreements with 
local community colleges. IEC also strongly supports the Registered 
Apprenticeship-College Coalition recently established by Departments of 
Education and Labor as a stepping stone for people that want to 
continue on in their quest for lifelong learning.
    We believe that schools need to increase their emphasis on 
education for a career, rather than education for the sake of college 
preparation. The education system needs to recognize that a four-year 
college is not the best investment for every individual. High school 
education should be broad enough to provide a pathway to either college 
or the skilled trades. Perhaps most importantly, high school teachers 
and advisors need to make students aware of all career options 
available to them, recognizing that students will likely hold multiple 
jobs over their working career and will need to pursue lifelong 
learning.

IV. The path forward will require both sufficient funding investments 
        in our nation's education system and support from both public 
        and private partnerships
    A July 2013 report by the Urban Institute entitled ``Innovations 
and Future Directors for Workforce Development in the Post-Recession 
Era'' highlights the need for the establishment of career pathways, 
industry-recognized credentials, work-based learning approaches such as 
apprenticeship, the need for soft skills training, and the need for 
establishment of partnerships between government and industry designed 
to address these needs. IEC believes such partnerships are absolutely 
critical in supporting career and technical education. SkillsUSA and 4H 
are two examples of important skills-building organizations that teach 
professionalism and self-pride while also preparing students for 
careers in highly technical trades such as electrical contracting.
    Further, the decision by many schools to eliminate their career and 
technical education programs is often cost-driven and skewed by 
incentives to drive students to college. Lab facilities and equipment 
used to train students in technical skills require dedicated space, 
unlike traditional multipurpose classrooms. Reauthorization of the 
Perkins Act and increased appropriations for career and technical 
education programs in schools is undoubtedly integral to improving the 
skills-building and training offered at the high school level. In order 
to build the skills and the workforce that our industry needs, 
sustaining both Perkins and Workforce Investment Act (WIA) funding is 
necessary--further, support for one should not be to the exclusion of 
the other.
    IEC has many more recommendations for improving partnerships 
between training programs and institutions such as community colleges, 
which we would be happy to provide in greater detail to this 
subcommittee.

V. Conclusion
    In closing, the focus of our nation's K-12 system needs to be 
redirected in a way that ensures students are adequately prepared with 
the basic academic education, life skills, and employability training 
needed to enter post-secondary education regardless of the specific 
career path they choose. As part of this, IEC strongly supports Career 
and Technical Education (applied learning) not only for those 
individuals that may not be suited for college but for those that 
preselect a technical career path, and to teach rising graduates 
integral basic life and employability skills.
            Sincerely,
                               Alexis Moch, Vice President,
             Government Affairs Independent Electrical Contractors.
                                 ______
                                 
                                                September 19, 2013.
Hon. Todd Rokita, Chairman; Hon. Carolyn McCarthy, Ranking Member,
Subcommittee on Early Childhood, Elementary and Secondary Education, 
        U.S. House of Representatives, Washington, DC 20515.
    Dear Chairman Rokita and Ranking Member McCarthy: On behalf of the 
140,000 members of the National Association of Home Builders (NAHB), I 
would like to submit this letter for the record and commend you for 
having this timely hearing on this all-important topic: ``Preparing 
Today's Students for Tomorrow's Jobs: A Discussion on Career and 
Technical Education and Training Programs.'' Through the Home Builders 
Institute (HBI), the workforce development affiliate of the NAHB, we 
are dedicated to the advancement and enrichment of education and 
training programs serving the needs of the housing industry.
    For more than 40 years, HBI has trained and placed thousands of 
youth and adults for careers in residential construction, ensuring that 
America has a skilled workforce today and for the future. HBI offers a 
range of Workforce Training and Employment programs to help at-risk 
youth, ex-offenders, veterans and women train and find jobs in 
residential construction, serving more than 2,500 in 20 states. One of 
the most successful programs is HBI Job Corps, which is a national 
training program that is implemented locally, using proven models that 
can be customized to meet the workforce needs of communities across the 
United States. These programs prepare students with the skills and 
experience they need for successful careers through pre-apprenticeship 
training, job placement services, mentoring, certification programs, 
textbooks and curricula. With an 80 percent job placement rate for 
graduates, HBI Job Corps programs provide services for disadvantaged 
youth in 73 centers across the country.
    HBI also administers more than 120 NAHB Student Chapters throughout 
the United States, representing more than 3,000 students from high 
schools, career and technical schools, community colleges and four-year 
colleges and universities. These chapters enrich the educational 
experience of students enrolled in construction-related courses through 
community projects, NAHB chapter participation and guest speakers.
    In turn, HBI hopes to create a closer partnership between the 
educational system and our industry. We are continuing to seek 
opportunities to expand the existing foundation between school 
officials and our industry, as the education system considers the 
offering of more vocational/technical trades programs in school 
curricula.
    HBI, through NAHB, appreciates the opportunity to describe our 
industry's tremendous investment and commitment to the workforce 
training of the nation's youth.
            Sincerely,
                                        James W. Tobin III.
                                 ______
                                 
    [Additional submission of Mr. Bargas, ``Building 
Louisiana's Craft Workforce,'' may be accessed at the following 
Internet address:]

                http://www.laworks.net/Downloads/PR/WIC/
               CraftWorkforceDevelopmentPlan20130617.pdf

                                 ______
                                 
    [Presentation submitted by Mr. Bargas follows:]

  [Louisiana Craft Workforce Development Board Presentation, October 
                                 2006]

        Recommendations for Confronting the Skilled Construction
                    Workforce Shortage in Louisiana

The Mission
    The Louisiana Craft Workforce Development Board will be a single 
voice for craft workforce development in Louisiana.
The Goals
    <bullet> Ensure appropriate focus is given to craft workforce 
development by contractors, users, government leaders, government 
agencies, and learning institutions.
    <bullet> Foster cooperation and communication between public and 
private entities engaged in craft workforce development.
    <bullet> Develop a consistent approach to recruiting, training, and 
retaining a skilled and productive Louisiana craft workforce.
Preamble
    The recognized shortage of craft workers in the construction, 
maintenance, and repair industry is not a new phenomenon in Louisiana.
    Although industry experts estimate that they have struggled with 
workforce development issues for 20 years, the problem has taken a 
dramatic turn for the worse in the wake of hurricanes Katrina and Rita.
    Industrial labor requirements were already trending up sharply 
prior to the disasters, and this trend has been exacerbated by disaster 
recovery and rebuilding.
    Studies by the Construction Labor Research Council show a national 
need for 185,000 new skilled craft workers per year during the period 
2005 to 2015.
    This need for additional workers is being driven by increased 
demand and replacement of workers leaving the active workforce.
    Residential, commercial, utilities, heavy construction, highways, 
and industrial projects in the state of Louisiana are reaching 
unprecedented levels post-Katrina/Rita.
    McGraw-Hill estimates that the state will need more than 90,000 new 
trained craft workers over the next five years.
    The Occupational Forecasting Conference predicts that some 
construction occupations will grow by over 50% in the next four years 
as a result of recovery-related work.
    Contractors are attempting to complete projects with an inadequate 
number of skilled workers, and this is causing significant increases in 
project duration, overtime, and installation costs.
    Public and private entities, industry associations and labor 
organizations have come together to address these critical needs by 
forming the Louisiana Craft Workforce Development Board.
1. Recommendations for Owner Companies, Local User Councils, and Owner 
        Associations
    Owners must take the lead to drive workforce development in the 
construction, maintenance and repair industry. The most effective and 
long-lasting improvements in the industry are changes that are 
supported and encouraged by the owner community, similar to the 
advances in safety over the past 20 years.
    Local user councils such as the Greater Baton Rouge Industry 
Alliance (GBRIA), Greater New Orleans Business Roundtable (GNOBR), Lake 
Area Industry Alliance (LAIA), and Southwest Louisiana Construction 
Users Council (SLCUC) function as forums through which contractors, 
engineering firms, and local owners (users of construction or 
maintenance services) can address local issues affecting construction, 
maintenance, and repair.
            Owner Companies
    The Louisiana Craft Workforce Development Board believes that 
owners must:
    <bullet> Establish expectations for workforce development in 
recruitment, assessment, training and retention.
    <bullet> Do business only with contractors who invest in workforce 
development.
    <bullet> Make contractor commitment to workforce development a 
factor in the prequalification process. Owners should require a 
detailed description of the contractor's workforce-development program, 
including:
    <bullet> The contractor's investments in workforce development.
    <bullet> Specific methods used to assess skill proficiencies, along 
with current skills assessment results for the contractor's entire 
workforce.
    <bullet> Documentation supporting continuous skill upgrade and 
improvement.
    <bullet> Reserve a certain number of positions for craft workers 
enrolled in active training.
    <bullet> Support standardized training curricula, performance 
standards, and certification, such as the National Center for 
Construction, Education and Research (NCCER) initiative or equivalent 
national initiatives that include assessment and credentialing.
    <bullet> Support the development and implementation of regional and 
local craft-training programs by placing construction, maintenance, and 
repair decision-makers on local user councils.
    <bullet> Actively support contractor, contractor-association, and 
organized-labor programs that enhance the image of careers in 
construction, improve the recruitment of entry-level applicants, and 
increase worker retention.
    <bullet> Work with owner associations to develop and participate in 
programs that measure workforce-development effectiveness in improving 
safety, quality, and productivity. Support award programs that 
recognize excellence in contractor workforce development.
            Local User Councils
    The Louisiana Craft Workforce Development Board believes that local 
user councils must:
    <bullet> Work with associations and labor organizations in the 
delivery of workforce development initiatives.
    <bullet> Encourage members to make contractor commitment to 
workforce development a factor in the prequalification process.
    Local user councils should encourage members to require detailed 
descriptions of contractor workforce-development programs, including:
    <bullet> Contractor's investments in workforce development.
    <bullet> Specific methods used to access skill proficiencies, along 
with current skills-assessment results for the contractor's entire 
workforce.
    <bullet> Documentation supporting continuous skill upgrade and 
improvement.
    <bullet> Encourage members to do business only with contractors who 
invest in workforce development.
    <bullet> Support standardized training curricula, performance 
standards, and certification, such as the NCCER initiative or 
equivalent national initiatives that include assessment and 
credentialing.
    <bullet> Actively support contractor, contractor-association, and 
labor-organization programs that enhance the image of careers in 
construction, improve the recruitment of entry-level applicants, and 
increase worker retention.
    <bullet> Work with area owners, contractors, and associations to 
assess skilled craft worker availability by trade on a continuing 
basis, and to develop short- and long-term projections for regional 
craft needs.
    <bullet> Work with contractor associations to develop programs that 
promote the accomplishments of the construction industry and publicize 
their contributions to the community and state.
    <bullet> Actively participate with local contractor associations in 
partnering with area school systems to:
    <bullet> Promote employment in the construction, maintenance, and 
repair industry as a rewarding career choice.
    <bullet> Implement career-education curricula that have 
articulation with technical and community colleges, ABC Training 
Centers, and other accredited training institutions.
    <bullet> Develop programs that measure workforce-development 
effectiveness in improving safety, quality, and productivity. Develop 
award programs that recognize excellence in contractor workforce 
development.
            Trade and Professional Associations
    The Louisiana Craft Workforce Development Board believes that 
organizations such as the Louisiana Association of Business and 
Industry (LABI), Louisiana Chemical Association (LCA) and Louisiana 
Chemical Industry Alliance (LCIA), and the Louisiana Midcontinent Oil 
and Gas Association (LAMOGA), must:
    <bullet> Make workforce development a priority through core values 
and political action.
2. Recommendations for Contractors, Contractor Assoc., & Labor 
        Organizations.
    Contractors and their associations are responsible for workforce 
development. Recruiting, a demonstrated commitment to training, and 
worker retention are contractor responsibilities. As an integral 
component of workforce development, efforts must be made to improve the 
image of the industry and to educate the public about careers in 
construction, maintenance, and repair.
            Contractors
    The Louisiana Craft Workforce Development Board believes that 
contractors must:
    <bullet> Implement workforce-development programs that include 
recruitment, assessment, training, career paths, and retention.
    <bullet> Work with contractor associations, government entities, 
and user groups to address workforce-development issues.
    <bullet> Utilize nationally certified programs such as the NCCER 
initiative or equivalent national initiatives that include assessment 
and credentialing.
    Invest in training curricula, such as the NCCER initiative or 
equivalent standardized curricula, correlated to assessment and 
credentialing.
    <bullet> Develop and implement programs that are designed to 
improve retention of skilled craft workers and include clearly 
delineated career paths, competitive wages, and benefits such as 
affordable healthcare, transferable healthcare, and portable retirement 
plans.
    <bullet> Participate in programs that measure workforce-development 
effectiveness in improving safety, quality, and productivity.
    <bullet> Partner with local school districts to inform 
administrators, school board members, students, parents, teachers, and 
counselors about career opportunities and educational requirements for 
construction, maintenance, and repair.
    <bullet> Participate in recognized industry programs that enhance 
the image of careers in the construction, maintenance, and repair 
industry.
    <bullet> Utilize the Louisiana Virtual One Stop (LAVOS) database to 
help identify people available for work.
            Contractor Associations
    The Louisiana Craft Workforce Development Board believes that 
contractor associations, including Associated Builders and Contractors 
(ABC), Associated General Contractors (AGC), and the Louisiana 
Homebuilders Association, must:
    <bullet> Encourage their members to commit to workforce-development 
programs that include recruitment, assessment, training, career paths 
and retention.
    <bullet> Educate existing and potential members about the 
importance of workforce development.
    <bullet> Collaborate and participate in recognized industry 
programs that enhance the image of careers in the construction, 
maintenance, and repair industry.
    <bullet> Partner with local school districts to educate 
administrators, school board members, students, parents, teachers, and 
counselors about careers and educational requirements for the 
construction, maintenance, and repair industry.
    <bullet> Maintain and enhance current delivery methods to train and 
certify craft workers throughout the state.
    <bullet> Encourage the development of innovative craft-training 
delivery methods that meet the changing needs of the industry, such as 
lab training, computer-based training, satellite and distance-delivery 
training.
    <bullet> Continue to support standardized training curricula, 
assessment, and certification, such as NCCER or equivalent national 
initiatives.
    <bullet> Work with owners to develop and encourage participation in 
programs measuring the effectiveness of workforce development in 
improving safety, quality, and productivity.
    <bullet> Encourage contractors to utilize the Louisiana Virtual One 
Stop (LAVOS) database to help identify people available for work.
            Labor Organizations
    The Louisiana Craft Workforce Development Board believes that labor 
organizations must:
    <bullet> Support the joint participation of labor and management in 
apprenticeship training, encourage employer contributions to these 
activities, and measure the return on such investments.
    <bullet> Continue to support standardized training curricula, 
assessment, and certification, such as NCCER or equivalent national 
initiatives.
    <bullet> Encourage the development of innovative craft-training 
delivery methods that meet the changing needs of the construction 
industry, such as lab training, computer-based training, and satellite 
and distance-delivery training.
    <bullet> Participate in recognized industry programs that measure 
workforce-development effectiveness in improving safety, quality, and 
productivity.
3. Recommendations for Public Entities
            Governor
    <bullet> Governor's Office of the Workforce Commission
    <bullet> Departments of the Executive Branch
            Labor, Economic Development, Social Services, Education, 
                    and Corrections
    <bullet> The Board of Elementary and Secondary Education (BESE)
    <bullet> Department of Education
    <bullet> Local School Boards and Districts
    <bullet> Louisiana Community and Technical Colleges System (LCTCS)
    <bullet> Board of Regents
    <bullet> Legislature

                                APPENDIX

Entities Represented
            Contractor Entities
Associated Builders & Contractors, Pelican Chapter Industrial Specialty 
        Contractors, LLC
Edward L. Rispone, Chairman of the Management Board
Associated Builders & Contractors, Pelican Chapter Southwest Area
Shaw Group, Inc.
Allen M. McCall, Operations Manager
Louisiana Associated General Contractors, Ken Naquin, Executive 
        Director
Louisiana Home Builders Association, Michelle Babcock, Lobbyist
            User Group Entities
Lake Area Industry Alliance, Larry DeRoussel, Executive Director
Greater Baton Rouge Industry Alliance
James Watkins, Contractor Operations Leader, The Dow Chemical Company
Greater New Orleans Business Roundtable, Steven R. Springer, Executive 
        Director
Gulf Coast Workforce Development Initiative
Tad E. Page, Project Mgr-Contractor Communications, Shaw Stone & 
        Webster
Southwest Louisiana Construction User's Council, Larry DeRoussel, 
        Executive Director
            Labor Organizations
South Central Laborers Training & Apprenticeship Fund, Gary Slaydon, 
        Administrator/Director
            Public Entities
Board of Elementary and Secondary Education, Linda Johnson, President
Louisiana Community & Technical College System, Jim Henderson, Senior 
        Vice President Workforce Development & Training
Louisiana Department of Labor, Girard J. Melancon, Special Assistant to 
        the Secretary
The Louisiana Workforce Commission, N.A. ``Pete'' Darling, Employer 
        Liaison
Louisiana Department of Education, Patricia Merrick, Career & 
        Technology Section Leader
Louisiana Department of Education, John Birchman, Career & Technology 
        Education (Industrial)
            Acknowledgements
Advantous Consulting LLC, Tim Johnson, Partner
Associated Builders & Contractors, Pelican Chapter, Alvin M. Bargas, 
        President, Melanie B. Searles, Director of Administration, Dr. 
        James Owens, Director of Workforce Development
Associated Builders & Contractors, Bayou Chapter, Ronnie Scott, 
        Director of Education
Gulf Coast Workforce Development Initiative Team, Tim Horst, President
Beacon Construction Company
Louisiana Department of Education, Patrick Nelson, T & I Program VITE 
        Certification
Louisiana Department of Public Safety & Corrections, Whalen Gibbs, 
        Assistant Secretary
Louisiana Department of Public Safety & Corrections, Kim Barnette, 
        Education Specialist, Office of Adult Services
National Center for Career Construction Education & Research
Gay St. Mary, Workforce Development Director, Business Roundtable Gulf 
        Coast Training Institute
            Facilitator
SSA Consultants
Christel C. Slaughter, Ph.D.
                                 ______
                                 
    [Additional submissions of Mr. Fischer follow:]

 Recommendations for the Reauthorization of the Carl D. Perkins Career 
                      and Technical Education Act

    The Carl D. Perkins Career and Technical Education Act (Perkins) 
supports Career Technical Education (CTE) programs by strengthening 
connections between secondary and postsecondary education, aligning to 
the needs of the economy, and improving the academic and technical 
achievement of students who choose to enroll in these programs.
    The National Association of State Directors of Career Technical 
Education Consortium (NASDCTEc) believes that the federal investment in 
CTE legislation, Perkins, should be strengthened by re-examining and 
re-framing the law to ensure equitable access to high-quality CTE 
programs of study and to better position CTE to help build the 
solutions needed to close the skills gap and improve student 
achievement. Therefore, NASDCTEc believes that federal CTE legislation 
needs a clearer focus and that its purpose should be ``to develop the 
academic and CTE skills of students to ensure America's global 
competitiveness through programs of study, partnerships with employers, 
and further education and careers.'' These recommendations seek to 
accomplish this purpose and promote innovation, accountability, and 
equitable access to high-quality CTE that meet the needs of our 
nation's students and employers.
Global Competitiveness
    <bullet> Link CTE to labor market--States are in the best position 
to determine how CTE can meet the demands of their state and regional 
economies. Federal CTE funds should only support high-quality CTE 
programs of study that meet two or more of the following criteria: high 
wage, high skill, high demand, or high growth. Definitions of these 
terms should account for varying state and regional economic conditions 
and labor market needs.
    <bullet> Rigorous standards--Consistent, quality benchmarks for 
students in CTE programs of study, regardless of where students live or 
which delivery system they use, are essential. Federal CTE legislation 
should require all CTE programs of study to align to rigorous content 
standards that are national in scope, are informed by the needs of the 
workplace, and ensure excellence. NASDCTEc believes that federal CTE 
legislation should encourage state adoption of rigorous college- and 
career-ready standards, such as those found in the Common Core State 
Standards and the Common Career Technical Core.\i\ Increased 
consistency and rigor in CTE programs of study will better equip 
students with the knowledge and skills necessary to thrive in a global 
economy.
---------------------------------------------------------------------------
    \i\ National Association of State Directors of Career Technical 
Education Consortium, Common Career Technical Core, http://
www.careertech.org/career-technical-education/cctc/
---------------------------------------------------------------------------
    <bullet> Innovation funding--The next federal CTE legislation 
should focus on improving student outcomes through innovative 
approaches and programmatic improvement. The next federal CTE 
legislation should allocate new formula funding, above and beyond the 
basic state grant, to states to incentivize innovative practices and 
solutions at the state and local levels. Successful innovations should 
be scaled up using the basic state grant funds.
Partnerships
    <bullet> Partnerships with business and industry--Strong 
partnerships between the CTE community and business and industry are 
essential to high-quality CTE programs of study. Federal CTE 
legislation should require local advisory committees comprised of 
employers and education stakeholders who will actively partner to 
design and deliver CTE programs of study and provide assistance in the 
form of curricula, standards, certifications, work-based learning 
opportunities, teacher/faculty externships, equipment, etc. States 
should have the flexibility to structure local advisory committees in a 
way that best meets the needs of their state (in terms of governance, 
funding, geographic and other influencing factors).
    <bullet> Consortia--Coordination and collaboration between 
secondary and postsecondary partners is essential and must be improved. 
The federal CTE legislation should incentivize consortia of secondary 
and postsecondary eligible entities to better facilitate coordination 
and transitions between learner levels. States should have the 
flexibility to structure consortia in a way that best meets the needs 
of their state in terms of governance, funding, and geographic factors.
Preparation for Education and Careers
    <bullet> School counseling and career planning--Comprehensive 
counseling, including career and academic counseling, should be 
expanded and offered no later than middle school. Federal CTE 
legislation should provide greater support for career counseling, 
including all students having an individual learning plan that includes 
the student's academic and careers goals, documents progress towards 
completion of the credits required to graduate from their secondary 
program, and indicates the requisite knowledge, skills and work-based 
learning experiences necessary for career success. These plans should 
be actively managed by students, parents, and school-level personnel 
and should extend into postsecondary education to ensure successful 
transitions to the workplace.
Programs of Study
    <bullet> High-quality CTE programs--Federal CTE legislation should 
focus on promoting excellence in CTE. To that end, NASDCTEc believes 
that more specificity is needed to define elements that are necessary 
to ensuring high-quality programs. Research by the National Research 
Center for Career and Technical Education \ii\ underscores our 
recommendation that federal funding should be delivered through 
rigorous programs of study, as defined by the Office of Vocational and 
Adult Education's 10 component framework.\iii\ The law should emphasize 
strategies that improve alignment between secondary and postsecondary 
systems, such as statewide articulation agreements, transcripted 
postsecondary credits, and stackable credentials. High-quality CTE 
programs should also expose students to employment and leadership 
opportunities, for instance, through work-based learning and 
participation in Career Technical Student Organizations (CTSOs). 
Federal funds should be distributed only to state-approved, rigorous 
CTE programs of study.
---------------------------------------------------------------------------
    \ii\ Shumer, R., Stringfield, S., Stipanovic, N., & Murphy, N. 
(2011, November). Programs of study: A cross-study examination of 
programs in three states. Louisville, KY: National Research Center for 
Career and Technical Education, University of Louisville. http://
www.nrccte.org/sites/default/files/publication-files/nrccte--pos--
crossstudy.pdf
    \iii\ U.S. Department of Education, Office of Vocational and Adult 
Education, ``Career and Technical Programs of Study: A Design 
Framework.'' The 10 components are: (1) legislation and policies, (2) 
partnerships, (3) professional development, (4) accountability and 
evaluation systems, (5) college and career readiness standards, (6) 
course sequences, (7) credit transfer agreements, (8) guidance 
counseling and academic advisement, (9) teaching and learning 
strategies, and (10) technical skills assessments.
---------------------------------------------------------------------------
Research and Accountability
    <bullet> Accountability measures--Strong accountability measures 
are critical to demonstrating CTE's positive return on investment. The 
current CTE performance indicators should be re-evaluated to ensure 
that they provide the feedback necessary for program evaluation and 
improvement, as well as document CTE's impact on students' academic and 
technical achievement. Federal CTE legislation should require common 
definitions and measures across the states, as well as allow for 
alignment of performance measures across related education and 
workforce programs.
    <bullet> Research and professional development--Research and 
evaluation are important guideposts for directing practitioners toward 
effective practices and guiding state decisions on CTE. Federal CTE 
legislation should support the continuation of a National Research 
Center for Career and Technical Education to support CTE educators and 
leaders through leadership development, quality research, professional 
development, dissemination, and technical assistance.
State Leadership and Governance
    <bullet> State flexibility--States should have the flexibility to 
determine the allocation of funds between secondary and postsecondary 
education. Funding should be awarded to a single eligible agency as 
defined in current law. Additionally, states should be given the 
flexibility to use the reserve fund to implement a performance-based 
funding system.
    <bullet> State administration and leadership--Strong state 
leadership is critical to ensuring that states have the data systems, 
standards, and partnerships to oversee the development and 
implementation of high-quality CTE programs of study. Adequate 
resources for state leadership and state administration, including 
maintaining the state administrative match, are necessary to ensure 
effective program administration and equitable access to high-quality 
CTE programs of study.
    The National Association of State Directors of Career Technical 
Education Consortium (NASDCTEc) represents state and territory leaders 
of CTE through leadership and advocacy that supports an innovative and 
rigorous CTE system that prepares students for both college and 
careers. CTE State Directors lead the planning and implementation of 
CTE in their respective states and these recommendations reflect their 
priorities.
    For more information, please contact the National Association of 
State Directors of Career Technical Education Consortium 8484 Georgia 
Avenue Suite 320, Silver Spring, MD 20910, 301-588-9630 
www.careertech.org
                                 ______
                                 
    [Additional submission of Mr. Fischer, ``Reflect, 
Transform, Lead: A New Vision for Career Technical Education,'' 
may be accessed at the following Internet address:]

     http://www.cciu.org/cms/lib4/PA01001436/Centricity/Domain/148/
                    New_Vision_Paper_SS12-18-10.pdf

                                 ______
                                 
    [Additional submission of Dr. Harrity follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    [Whereupon, at 10:54 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
